                              NATIONAL SCIENCE FOUNDATION
                                    4201 Wilson Boulevard
                                  ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL




MEMORANDUM

Date:          March 3, 2010

To:            Mary F. Santonastasso, Director
               Division of Institution and Award Support

               Karen Tiplady, Director
               Division of Grants and Agreements

Thru:          Jannifer Jenkins /s/
               Senior Audit Manager

From:          Ken Stagner /s/
               Audit Manager

Subject:       Audit Report No. OIG-10-1-006
               University of Missouri – Columbia


Attached i s t he f inal a udit r eport, pr epared b y McBride, Lock & A ssociates, a n i ndependent
public a ccounting f irm, on t he a udit o f NSF A ward Numbers
                                                         awarded to the University of M issouri –
Columbia (the University). The audit covers the period from January 1, 2004 to December 31,
2008, for NSF direct funded costs aggregating to approximately $14.9 million and $1 million in
cost sharing reported to NSF. T he University was selected for audit because of the high dollar
value of NSF awards; the collaborative nature of many of those awards; and the material internal
control deficiencies reported in the University’s Fiscal Years 2005-2007 Office of Management
and Budget Circular A-133 audits and a 2007 NSF desk review.
Overall the auditors determined that the cos ts and cost s hare claimed by the University and i ts
subawardees for t he NSF aw ards audited appear f airly s tated and are al lowable, allocable and
reasonable. In addition, the majority of the recommendations made in prior A-133 Single Audit
reports and t he NSF desk review had be en a ddressed. However, the a uditors i dentified
significant compliance and internal control deficiencies in the University’s financial management
of i ts s ubaward a nd pa yroll c osts. The U niversity’s system for monitoring s ubawardees i s not
sufficiently comprehensive a nd labor c ost t ransfers are not c onsistently s upported b y
documentation of j ustification, e xplanation, i ndependent r eview or a pproval nor do s uch
transfers al ways r esult i n an updated effort cer tification to validate and reflect p ayroll
adjustments. Specifically:

   1. The University di d not adequately m onitor s ubaward c osts c harged t o t hree of t he f ive
      NSF awards audited, which included 11 s ubawards amounting to $9,164,036 or 61% of
      the t otal c osts c harged to N SF. The a uditors f ound t hat a lthough t he University has
      written s ubaward m onitoring pol icies a nd p rocedures, t he U niversity did not a lways
      adhere to them. As a result, the University’s internal controls over subaward costs do not
      provide a ssurance t hat t he e xpenditures r eported a nd c laimed b y t he s ubawardees are
      accurate, valid, and allowable.

   2. The U niversity doe s no t ha ve a dequate i nternal c ontrols a nd s afeguards i n pl ace t o
      adequately process all labor cost transfers or to ensure that labor effort certifications are
      properly r ecertified onc e pa yroll a djustments a re m ade a s r equired b y i ts ow n p olicies.
      This occurred because the policies and procedures for labor cost transfers made within 2
      accounting periods are not adequate to ensure that all labor cost transfers are adequately
      documented, j ustified, a pproved a nd pr operly c harged t o t he N SF a wards. A lso, the
      University is not adhering to its policy to recertify changes made on effort reports after
      subsequent r evisions a re m ade. The l ack o f proper do cumentation, approval a nd
      secondary r eview of l abor c ost t ransfers and proper c ertification of e ffort re porting
      increases the risk that irregularities or embezzlements that af fect NSF and federal grant
      funds could occur and go undetected. In addition, if the University fails to address these
      issues, similar problems may occur on t he University’s other existing 278 c urrent active
      NSF awards and on future NSF awards.

To address these compliance and internal control deficiencies, the auditors recommend that NSF
ensures that: (1) t he University Controller’s O ffice, a s pa rt of t he r isk a ssessment pr ocess,
request and review, for all subawardees, Subrecipient Confirmation Letters, A-133 audit reports
and reports of ot her regulatory agencies, such as f ederal O ffices of Inspector G eneral and
internal a uditors, and document t he r ationale f or al l r isk as sessment decisions, w hile e nsuring
that s upervisory pe rsonnel pe rform a t horough r eview of t he r isk a ssessment a nd r equire
additional m onitoring a s ne cessary; (2) the University r evise a nd di stribute, t hrough a n
expanded training program, its policy to require documentation justifying all labor cost transfers,
provide for independent review of labor cost transfers exceeding a pre-determined dollar amount;
and (3) r evise its pol icies to require recertifications a nd actively m onitor pa yroll correcting
entries for changes occurring after the effort reporting certifications are complete, to ensure that
such effort verification reports are re-certified as required by the University.




                                                   2
The University does not concur with the finding that the University did not adequately perform
monitoring of its subawardees, and believes that minimal changes in policies or procedures are
necessary. T he U niversity contends t hat s ending s ubawardee m onitoring l etters a nd r isk
assessment que stionnaires, a nd r eviewing O MB Circular A -133 a udit reports i s not ne cessary
when alternative i nformation sources ar e ava ilable. It is the U niversity’s pos ition that the
alternative information sources, although less informative and lacking subawardee representation
as t o compliance, ar e s ufficient f or r isk assessment pur poses. However, the U niversity a grees
that the risk assessment should be reviewed by supervisory personnel. In addition, the University
agrees to i mplement r evised pol icies a nd pr ocedures w ith r espect t o processing l abor c ost
transfers and ensuring that labor effort certifications are properly recertified.

In accordance with OMB Circular A-50, please coordinate with our office during the six-month
resolution pe riod to de velop a m utually a greeable r esolution of t he a udit f indings. Also, t he
findings should not be c losed unt il N SF determines that all r ecommendations ha ve be en
adequately addressed and the proposed corrective actions have been satisfactorily implemented.

We are providing a copy of this memorandum to the Acting Division Director in the Division of
Education a nd Human Resources - (EHR/DRL), and the Acting Division Director and Acting
Deputy Division Director in the Division of Biological Sciences (BIO/IOS). T he responsibility
for audit resolution rests with the Division of Institution and Award Support, Cost Analysis and
Audit Resolution Branch (CAAR). A ccordingly, we ask that no a ction be taken concerning the
report’s findings without first consulting CAAR at 703-292-8244.

OIG Oversight of Audit

To f ulfill our r esponsibilities unde r G overnment A uditing S tandards, the O ffice of I nspector
General:

   •   Reviewed McBride, Lock & Associates’ approach and planning of the audit;

   •   Evaluated the qualifications and independence of the auditors;

   •   Monitored the progress of the audit at key points;

   •   Coordinated periodic meetings with McBride, Lock & Associates and NSF officials, as
       necessary, to discuss audit progress, findings, and recommendations;

   •   Reviewed the audit report, prepared by McBride, Lock & Associates to ensure compliance
       with Government Auditing Standards; and

   •   Coordinated issuance of the audit report.




                                                   3
McBride, Lock & Associates is responsible for the attached auditor’s report on the University of
Missouri and t he c onclusions e xpressed i n t he r eport. W e do not e xpress a ny opi nion on t he
Schedules of A ward C osts, i nternal c ontrol, o r c onclusions on c ompliance w ith l aws a nd
regulations.

We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact me at 303-312-7655.


Attachment

cc:   David A. Ucko, Acting Division Director, EHR/DRL
      Jane Silverthorne, Acting Division Director, BIO/IOS
      William E. Zamer, Acting Deputy Division Director, BIO/IOS




                                                 4
           UNIVERSITY OF MISSOURI
             c/o The Board of Curators
                316 University Hall
             Columbia, Missouri 65211

             Financial Audit of Financial
             Schedules and Independent
                 Auditors' Reports on
            National Science Foundation
                  Award Numbers




For the Period from January 1, 2004 to December 31, 2008




                                               McBride, Lock & Associates
                                                         1111 Main Street
                                                                 Suite 900
                                                   Kansas City, MO 64105
EXECUTIVE SUMMARY
BACKGROUND

The N ational S cience Foundation ( NSF) Office of I nspector General ( OIG), engaged
McBride, Lock & Associates to perform an audit on $14.9 million in costs claimed and
$1 million in cost s haring c laimed as r eported on the December 31, 2008 F ederal
Financial R eport (FFR) and cost s haring r eports s ubmitted t o NSF b y t he University o f
Missouri, ( the U niversity) on N SF award num bers


The University is a public research university and a federal land-grant institution that has
provided teaching, research, and public service to Missouri and the nation since 1839. As
of J une 2008, the U niversity ha d 283 active NSF awards totaling more t han $114.8
million. T his a udit e ncompassed f ive of the U niversity’s aw ards w ith costs c laimed
totaling $14.9 million and represented approximately 13% of the University’s total NSF
funding. T he U niversity was s elected f or audit be cause of t he hi gh dol lar va lue a nd
number of N SF awards, t he c ollaborative n ature of m any o f t hose a wards, a nd t he
material internal control deficiencies reported in the University’s FYs 2005-2007 Office
of Management and Budget (OMB) Circular A-133 audits and a 2007 NSF desk review.

Specifically, the pr ior A -133 a udits i dentified m aterial non -compliance and internal
control w eaknesses i n areas i ncluding cost com pliance, cash management, reporting o f
expenditures, pr ocurement a nd pr operty s ystems, s ub-recipient m onitoring, grant da ta
access, and maintenance of supporting documentation. In addition, the NSF desk review
identified a l ack o f documenting pol icies and p rocedures t o t rack bud gets/expenditures,
document c ost t ransfers a nd a ccounting t ransactions, a nd pe rform a ccounting
responsibilities s uch a s preparing ba nk r econciliations, c alculating a nd p rocessing f ixed
asset depreciation entries and performing year-end closing activities.

OBJECTIVES

The obj ectives of t his e ngagement w ere t o de termine w hether t he S chedules of A ward
Costs of t he U niversity ( Schedules A -1 t hrough A -5) pr esent fairly, in all ma terial
respects, the costs claimed by the University in conformity with the terms and conditions
of the N SF aw ard and Federal requirements, to i dentify weaknesses i n the University’s
internal control over financial reporting that could have a direct and material effect on the
University’s ability to properly administer, account for, and monitor its NSF awards. In
addition, we were t o determine w hether th e U niversity adequately monitors its
subawardees and ensure t hat pr eviously i dentified a udit r ecommendations ha ve be en
satisfactorily addressed and implemented.

RESULTS AND RECOMMENDATIONS

We determined that the $14.9 million in costs and the $1 million in cost sharing claimed
by the U niversity for th e NSF a wards audited appear f airly s tated and are allowable,
allocable, a nd r easonable. O verall, pr ior a udit f indings w ere s atisfactorily a ddressed
except in the areas of subaward monitoring and payroll cost transfers.

Our a udit ide ntified significant c ompliance a nd i nternal c ontrol de ficiencies i n the
University’s financial m anagement of i ts s ubaward and pa yroll costs. T he University’s
                                                  i
system for monitoring s ubawardees i s not s ufficiently comprehensive and labor c ost
transfers a re not c onsistently s upported b y doc umentation of j ustification, e xplanation,
independent review or approval nor do s uch transfers always result in an updated effort
certification to validate and reflect payroll adjustments. Specifically:

   1. The University did not adequately monitor subaward costs charged to three of the
      five NSF awards audited, which included 11 subawards amounting to $9,164,036
      or 61% of t he t otal costs cha rged t o NSF. Although t he University e stablished
      written s ubaward m onitoring pol icies a nd p rocedures, t he U niversity did not
      always adhe re t o them. In addition, t he e xisting s ubaward m onitoring policies
      and procedures should be strengthened.

       The U niversity di d not a lways a dhere t o i ts policy b y consistently sending
       monitoring l etters a nd s ubawardee r isk a ssessment que stionnaires t o t he
       subawardees. F urthermore, s ubawardees’ OMB C ircular A -133 a udit r eports
       were not regularly obtained and reviewed, as required, leading to the potential for
       inaccurate r isk assessment r esults. These va riations f rom pol icy w ere b ased on
       staff’s opinion that sufficient information for risk assessment and monitoring was
       obtained w ithout performing t he a bove procedures and reflect a l ack of r eview
       and ove rsight b y t he U niversity. As a r esult, t he U niversity’s i nternal controls
       over subaward costs do not provide assurance that the expenditures reported and
       claimed by the subawardee are accurate, valid, and allowable.

   2. The University does not have adequate internal controls and safeguards in place to
      adequately pr ocess al l l abor cos t t ransfers or t o ensure t hat l abor ef fort
      certifications ar e pr operly recertified onc e pa yroll adjustments ar e made as
      required b y i ts ow n pol icies. This oc curred because the pol icies a nd pr ocedures
      for l abor c ost t ransfers made w ithin 2 a ccounting pe riods a re not a dequate t o
      ensure that all labor cost transfers are adequately documented, justified, approved
      and pr operly c harged to the N SF aw ards and be cause t he U niversity i s not
      adhering to its policy to recertify changes made on effort reports after subsequent
      revisions ar e m ade. The l ack of pr oper doc umentation, a pproval a nd s econdary
      review of labor cost transfers and proper certification of effort reporting increases
      the r isk that i rregularities or em bezzlements that af fect N SF and federal g rant
      funds could occur and go undetected. In addition, if the University fails to address
      these compliance and internal control weaknesses, similar problems may occur on
      the University’s other e xisting 278 c urrent a ctive N SF a wards and on f uture
      NSF awards.

To a ddress t hese i ssues, w e recommended t hat N SF’s D irector of t he D ivision of
Institution and Award Support ensure that: (1) the University Controller’s Office, as part
of the risk assessment pr ocess, request and review, f or a ll s ubawardees, Subrecipient
Confirmation Letters, A-133 audit reports and reports of other regulatory agencies, such
as federal Offices of Inspector General and internal auditors, and document the rationale
for a ll r isk assessment decisions, w hile e nsuring t hat s upervisory p ersonnel pe rform a
thorough r eview of t he r isk a ssessment a nd r equire a dditional m onitoring a s ne cessary;
(2) the University revise and distribute, through an expanded training program, its policy
to r equire documentation justifying all l abor c ost t ransfers, pr ovide f or i ndependent
review o f labor cost transfers exceeding a pre-determined dollar amount; and (3) revise
                                                     ii
its pol icies to require recertification and actively m onitor pa yroll c orrecting e ntries f or
changes o ccurring a fter the ef fort r eporting c ertifications ar e com plete, to ensure t hat
such effort verification reports are re-certified as required by the University.

UNIVERSITY OF MISSOURI RESPONSE

The U niversity r esponded t o t he dr aft r eport o n M arch 2, 2010. In i ts r esponse, t he
University does not concur with the finding that the University did not adequately perform
monitoring of i ts s ubawardees, a nd be lieves that mini mal c hanges in policies o r
procedures a re n ecessary. T he U niversity contends t hat s ending s ubawardee m onitoring
letters a nd r isk a ssessment que stionnaires, a nd r eviewing O MB C ircular A -133 a udit
reports i s not ne cessary w hen alternative i nformation sources ar e av ailable. It is the
University’s pos ition t hat t he a lternative i nformation s ources, although l ess i nformative
and lacking subawardee representation as to compliance, are sufficient for risk assessment
purposes. However, the University agrees that the risk assessment should be reviewed by
supervisory pe rsonnel. In a ddition, t he University ha s agreed to implement r evised
policies a nd pr ocedures with r espect t o pr ocessing l abor c ost t ransfers a nd e nsuring t hat
labor effort certifications are properly recertified.
.
The f indings i n t his r eport s hould not be closed unt il N SF ha s d etermined t hat a ll t he
recommendations ha ve been a dequately a ddressed a nd t he pr oposed corrective a ctions
have be en i mplemented. T he U niversity’s r esponse w ill be i ncluded in its e ntirety in
Appendix A.

For a c omplete di scussion of t hese f indings, r efer t o t he Report o n Internal C ontrol O ver
Financial Reporting and on Compliance and Other Matters Based on an Audit of Financial
Schedules Performed in Accordance with Government Auditing Standards.




                                                      iii
                                   University of Missouri
                                      Table of Contents
                                                                                   Page

Executive Summary:
Background, Objectives and Results and Recommendations                             i-iii
Introduction:
Background                                                                          1
Audit Objectives, Scope, And Methodology                                            3
Findings and Recommendations
Independent Auditors’ Report on Financial Schedules                                 5
Report on Internal Control Over Financial Reporting and on Compliance and Other     7
   Matters Based on An Audit of Financial Schedules Performed in Accordance with
   Government Auditing Standards
Financial Schedules and Supplemental Information:
Schedule A Schedules of Award Costs (Schedules A-1 to A-5)                         26-30
Schedule B Schedule of Cost Sharing                                                 31
Schedule C Summary Schedules of Awards Audited and Audit Results                   32-33
Notes to the Financial Schedules                                                    34

Appendix A – Awardee’s Comments on Report                                           37
Appendix B – Status of Prior Audit Findings                                         42
Appendix C – Exit Conference                                                        44

                                           Acronyms
                     APM           Accounting Policy Manual
                     BPM           Business Policy Manual
                     EAE           Effort Allocation Estimate
                     EVR           Effort Verification Report
                     FFR           Federal Financial Reports
                     MU            University of Missouri at Columbia
                     NSF           National Science Foundation
                     OIG           Office of Inspector General
                     OMB           Office of Management and Budget
                     OSPA          Office of Sponsored Programs Administration
                     PCE           Payroll Correcting Entry
                     PI            Principal Investigator
                     SPO           Sponsored Program Officer
                     UA            University of Arizona
                     WMU           Western Michigan University

                                              iv
INTRODUCTION




     v
BACKGROUND

We audited funds a warded b y N SF t o the U niversity of M issouri ( the U niversity)
under a ward nu mbers
                for the period January 1, 2004 to December 31, 2008. The University, as
a F ederal a wardee, i s required t o follow t he cost principles s pecified i n 2 C FR P art 22 0
(OMB Circular A-21), Cost Principles for Educational Institutions; Federal administrative
requirements contained i n 2 C FR Part 215 ( OMB C ircular A -110), Uniform
Administrative R equirements f or G rants and Agreements w ith I nstitutions of H igher
Education, H ospitals, and O ther N on-Profit O rganizations; an d F ederal au dit
requirements in OMB Circular-A-133, Audits of States, Local Governments, and Non-
Profit Organizations.

The U niversity i s a public r esearch uni versity a nd l and g rant i nstitution g overned b y a
Board of C urators, w ith a dministrative of fices l ocated i n C olumbia, M issouri a nd f our
campuses i n C olumbia, Kansas C ity, R olla and St. Louis. The University has m ore t han
64,000 students on i ts campuses and serves hundreds of thousands statewide through the
University Extension and the University Health System.

The University was s elected f or audit be cause o f t he hi gh dol lar v alue a nd num ber of
NSF awards, the collaborative nature of many of those awards, and the material internal
control de ficiencies r eported in the U niversity’s F Y 2005 -2007 OMB Circular A-133
audits and a 2007 NSF desk review. As of June 2008, the University had 283 active NSF
awards t otaling ove r $1 14.8 m illion. T his a udit e ncompassed f ive of t he U niversity’s
awards, w hich t otaled $1 4.9 million and r epresented approximately 13% o f t he
University’s total NSF funding.

A description of the five NSF awards audited follows:

1. Continuing G rant A ward
                            The U niversity w as awarded approximately $11 million
   effective January 1, 200 4 t hrough D ecember 31, 2010 to advance t he r esearch base
   and l eadership c apacity supporting K -12 m athematics c urriculum de sign, a nalysis,
   implementation and evaluation. C SMC i s a c ollaborative e ffort b etween t he
   University of M issouri at C olumbia, t he U niversity of C hicago, M ichigan State
   University, Western Michigan University, Horizon Research Inc, and the University
   of Io wa. T he C SMC a ward i ncludes $6.6 million in s ub-awards, a nd requires
   $674,293 in cost sharing.

    We conducted our audit of this award for the period January 1, 2004 to December 31,
    2008. Cumulative disbursements for grant number                  reported to NSF for
    the audit period were $6,443,412.

2. Cooperative A greement A ward
              . The U niversity w as awarded approximately $6.7 million effective
   September 1, 2004 through August 31, 2009 to determine the mechanisms that
   contribute t o c hromatin-based c ontrol o f gene e xpression us ing m aize, a pr emier
   model for these studies. The award is a collaborative effort between the University of
   Missouri at Columbia, the University of Arizona, the University of Georgia Research
   Foundation Inc, t he U niversity o f M innesota-Twin Cities, the U niversity of
                                                     1
   Wisconsin-Madison, and Washington University. The award includes $5.3 million in
   sub-awards. No cost sharing was required.

   We conducted our audit of this award for the period September 1, 2004 to December
   31, 200 8. Cumulative di sbursements for award number DBI-0421619 reported t o
   NSF for the audit period were $6,397,648.

3. Standard G rant Award
                                                                       The U niversity
   was aw arded approximately $ 2.2 million effective S eptember 15, 2005 t hrough
   August 31, 20 09, with a s ubsequent e xtension t hrough D ecember 31, 2010, t o
   evaluate high school students’ mathematics learning from textbooks. No cost sharing
   was required.

   We conducted our audit of this award for the period September 15, 2005 to December
   31, 200 8. Cumulative di sbursements for award number DRL-0532214 reported t o
   NSF for the audit period were $899,294.

4. Standard Grant A ward                                                          The
   University was awarded $643,242, effective August 1, 2006 through July 31, 2010 to
   learn how a nd w here pollen and the pi stil p roteins int eract to allow the s elf-
   incompatibility system in Nicotiana. No cost sharing was required.

   We conducted our audit of this award for the period August 1, 2006 to December 31,
   2008. Cumulative di sbursements f or award number                  reported t o N SF
   for the audit period were $388,081.

5. Standard Grant Award
                                                                  The U niversity was
   awarded approximately $1.5 million effective January 1, 2007 t hrough December 31,
   2008, w ith a s ubsequent e xtension t hrough D ecember 31, 2010, t o s tudy Brassica
   Oleracea which is em erging as a pl ant m odel. The aw ard is a col laborative ef fort
   between the University of Missouri at Columbia, the Institute of Genomic Research,
   and t he U niversity o f G eorgia R esearch Foundation Inc. T he a ward i ncludes
   approximately $1.3 million in subawards. No cost sharing was required.

   We conducted our audit of this award for the period January 1, 2007 to December 31,
   2008. Cumulative di sbursements f or award number                   reported t o N SF
   for the audit period were $775,065.

Several non-compliance and internal control weaknesses have been previously identified
in the University’s financial compliance, reporting, and administration of its federal and
NSF awards. Specifically, the University’s FYs 2005-2007 OMB Circular A-133 audits
identified material non -compliance and i nternal c ontrol weaknesses i n areas i ncluding
cost compliance, cash management, reporting of expenditures, procurement and property
systems, sub-recipient monitoring, grant d ata access a nd m aintenance of s upporting
documentation. In a ddition, the NSF desk review identified a l ack of doc umenting
policies a nd pr ocedures t o t rack budg ets/expenditures, doc ument c ost t ransfers a nd
accounting t ransactions, or pe rform a ccounting r esponsibilities s uch a s p reparing ba nk

                                                    2
reconciliations, calculating and processing f ixed asset de preciation ent ries and
performing year-end closing activities.

AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

At t he r equest of t he N SF O ffice o f Inspector General, McBride, Lock & A ssociates
conducted an audit of NSF Award Numbers
                                    granted to the University of Missouri.

The objectives of our audit were to:

1. Determine w hether th e University of M issouri's s ystem of i nternal c ontrol ove r
   administering its NSF awards is adequate to account for and ensure compliance w ith
   applicable OMB Circulars and NSF award requirements;

2. Identify a nd r eport i nstances of noncompliance w ith l aws, r egulations, a nd t he
   provisions of the award agreements and weaknesses in the University's internal controls
   over compliance that could have a direct and material effect on the Schedules of Award
   Costs and the University's ability to properly administer, account for, and manage its
   NSF awards;

3. Determine whether the University adequately monitors its sub-awards;

4. Determine w hether t he U niversity’s S chedules of A ward C osts pr esent f airly, i n a ll
   material r espects, t he c osts claimed on the F ederal F inancial R eports ( FFR) i n
   conformity w ith N SF-OIG's Audit G uide and t he t erms a nd c onditions of t he N SF
   awards; and

5. Follow-up on r ecommendations i dentified i n t he U niversity’s O MB C ircular A -133
   reports and NSF’s Desk Review to determine if they were satisfactorily addressed and
   implemented.

We conducted our audit in accordance with auditing standards generally accepted in the
United S tates of A merica, t he s tandards a pplicable t o f inancial audits c ontained i n t he
Government A uditing St andards (2007 R evision) i ssued by the C omptroller G eneral of
the United S tates, a nd t he guidance pr ovided i n t he National Sc ience F oundation OIG
Audit G uide (August 2008) , a s a pplicable. T hose s tandards and t he National Sc ience
Foundation OIG Audit G uide require t hat w e plan a nd pe rform t he a udit t o obt ain
reasonable as surance about w hether th e a mounts c laimed to th e National S cience
Foundation as p resented in the Schedules of Award Costs (Schedules A-1 to A-5), are
free o f ma terial mis statement. An audit inc ludes e xamining, on a te st b asis, evidence
supporting the a mounts a nd di sclosures i n t he S chedules of Award C osts ( Schedules
A-1 t o A-5). A n audit a lso i ncludes a ssessing t he accounting p rinciples us ed a nd
significant estimates made by the University of Missouri, as well as evaluating the overall
financial schedule presentation. We believe that our audit provides a reasonable basis for
our opinion.




                                                     3
  FINDINGS AND
RECOMMENDATIONS
SUITE 900
1111 MAIN STREET
KANSAS CITY, MO 64105
TELEPHONE: (816) 221.4559
FACSIMILE: (816) 221.4563
EMAIL: Admin@McBrideLock.com
CERTIFIED PUBLIC ACCOUNTANTS
McBRIDE, LOCK & ASSOCIATES


              INDEPENDENT AUDITORS' REPORT ON FINANCIAL SCHEDULES

National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

We h ave au dited t he co sts cl aimed b y the University of M issouri to t he N ational S cience
Foundation ( NSF) on t he Federal Financial R eports — Federal S hare o f N et Disbursements for
the NSF awards listed below. In addition, we audited the amount of cost sharing claimed on award
                    The Federal F inancial R eports, a s pr esented i n t he S chedules of A ward C osts
(Schedules A-1 to A -5) a re th e r esponsibility o f the University of M issouri's m anagement. Our
responsibility i s t o e xpress a n opi nion on t he Schedules of A ward C osts ( Schedules A -1 t o A -5)
based on our audit.

 Award Number                   Award Period                          Audit Period
                        Jan. 1, 2004 - Dec. 31, 2010         Jan. 1, 2004 - Dec. 31, 2008
                        Sept. 1, 2004 - Aug. 31, 2009        Sept. 1, 2004 - Dec. 31, 2008
                        Sept. 15, 2005 - Aug. 31, 2010       Sept. 15, 2005 - Dec. 31, 2008
                        Aug. 1, 2006 - July 31, 2010         Aug. 1, 2006 - Dec. 31, 2008
                        Jan. 1, 2007 - Dec. 31, 2008         Jan. 1, 2007 - Dec. 31, 2008

We c onducted ou r a udit i n a ccordance w ith a uditing standards generally accepted i n t he U nited
States of America, the standards applicable to financial audits contained in Government Auditing
Standards (2007 Revision) i ssued b y t he C omptroller G eneral of t he U nited S tates, a nd t he
guidance pr ovided i n the National S cience Foundation OIG Audit Guide (August 2008 ), a s
applicable. Those standards and the National Science Foundation OIG Audit Guide require that
we plan and perform the audit to obtain reasonable assurance about whether the amounts claimed
to the N ational S cience F oundation as pr esented i n t he S chedules o f Award C osts
(Schedules A-1 to A-5), are free of material misstatement. An audit includes examining, on
a test basis, evidence supporting the amounts and disclosures in the Schedules of Award Costs
(Schedules A -1 t o A-5). A n a udit a lso i ncludes a ssessing the accounting principles us ed and
significant estimates made by the University of Missouri’s management, as well as evaluating the
overall financial schedule presentation. We believe that our audit provides a reasonable basis for our
opinion.

In our opi nion, the S chedules of Award Costs (Schedules A -1 t o A-5) r eferred to above p resent
fairly, i n all m aterial respects, t he costs cl aimed o n t he Federal Financial R eports — Federal
Share o f Net D isbursements and cost s haring claimed, for the pe riod January 1, 2004 through
December 31, 2008, in conformity with the provisions of the National Science Foundation OIG
Audit Guide, NSF Grant Policy Manual, terms and conditions of the NSF awards and on the basis
                                                         5
of accounting d escribed i n the N otes to t he F inancial S chedules, w hich i s a c omprehensive
basis of a ccounting ot her t han generally accepted accounting principles. These schedules are not
intended t o be a c omplete presentation of f inancial position i n c onformity w ith a ccounting
principles generally accepted in the United States of America.

In a ccordance w ith Government A uditing Standards and t he guidance p rovided i n the
National Science Foundation OIG Audit Guide, we have also issued a report dated October 16,
2009, on ou r consideration of the U niversity of Mi ssouri's i nternal c ontrol ove r f inancial
reporting a nd our t ests of t he U niversity’s c ompliance w ith c ertain pr ovisions of l aws,
regulations, and NSF award terms and conditions and other matters. The purpose of that report
is to describe the scope of our testing of internal control over financial reporting and compliance
and t he r esults of t hat testing, a nd not t o pr ovide a n opi nion on t he i nternal c ontrol ove r f inancial
reporting or on compliance. That report is an integral part of an audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in considering
the results of our audit.

This report i s i ntended s olely for t he i nformation a nd use o f t he University of Missouri's
management, the National Science Foundation, the University of Missouri’s cognizant federal audit
agency, the Office of Management and Budget, and the Congress of the United States and is no t
intended to be and should not be used by anyone other than these specified parties.




McBride, Lock & Associates
October 16, 2009




                                                        6
SUITE 900
1111 MAIN STREET
KANSAS CITY, MO 64105
TELEPHONE: (816) 221.4559
FACSIMILE: (816) 221.4563
EMAIL: Admin@McBrideLock.com
CERTIFIED PUBLIC ACCOUNTANTS
McBRIDE, LOCK & ASSOCIATES

                          REPORT ON
INTERNAL CONTROL OVER FINANCIAL REPORTING AND ON COMPLIANCE AND
OTHER MATTERS BASED ON AN AUDIT OF FINANCIAL SCHEDULES PERFORMED
       IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

We h ave audited t he co sts cl aimed as p resented i n t he S chedules o f A ward C osts
(Schedules A-1 to A-5), which summarize the financial reports submitted by the University
of M issouri to t he N ational Science F oundation ( NSF), and cl aimed co st sharing, as
applicable, f or the a wards listed be low a nd h ave i ssued o ur r eport thereon dated October 1 6,
2009.
         Award Number                  Award Period                          Audit Period
                               Jan. 1, 2004 - Dec. 31, 2010         Jan. 1, 2004 - Dec. 31, 2008
                               Sept. 1, 2004 - Aug. 31, 2009        Sept. 1, 2004 - Dec. 31, 2008
                               Sept. 15, 2005 - Aug. 31, 2010       Sept. 15, 2005 - Dec. 31, 2008
                               Aug. 1, 2006 - July 31, 2010         Aug. 1, 2006 - Dec. 31, 2008
                               Jan. 1, 2007 - Dec. 31, 2010         Jan. 1, 2007 - Dec. 31, 2008

We conducted our audit of the Schedules of Award Costs as presented in Schedules A-1 to A-5
in a ccordance with auditing standards generally accepted i n t he United S tates of A merica,
standards a pplicable t o f inancial a udits c ontained i n Government A uditing St andards (2007
Revision), i ssued b y t he C omptroller G eneral of t he U nited S tates; a nd guidance pr ovided i n t he
National Science Foundation OIG Audit Guide (August 2008), as applicable.

INTERNAL CONTROLS OVER FINANCIAL REPORTING
In pl anning a nd p erforming our audit o f t he S chedules of Award C osts ( Schedules A -1 to A -5)
for t he period J anuary 1, 2004 t o December 31, 2 008, w e considered the U niversity of
Missouri's internal control over financial reporting as a basis for designing our auditing procedures
for t he pur pose of e xpressing our opi nion on t he f inancial s chedules, but not f or t he pur pose of
expressing an opi nion o n t he e ffectiveness o f the University of M issouri's internal c ontrol over
financial r eporting. A ccordingly, w e do not express a n opi nion on the e ffectiveness of the
University of Missouri's internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described
in the preceding paragraph and would not necessarily identify all deficiencies in internal control
over f inancial r eporting th at mig ht b e s ignificant d eficiencies o r material w eaknesses.
However, as discussed below, we identified certain deficiencies in internal control over financial
reporting that we consider to be significant deficiencies.
                                                       7
A control deficiency exists when the design or operation of a control does not allow management or
employees, i n t he nor mal c ourse of pe rforming their a ssigned f unctions, to pr event or detect
misstatements o n a t imely b asis. A s ignificant d eficiency i s a control d eficiency, or
combination o f co ntrol d eficiencies, that a dversely affects t he entity's a bility to initiate,
authorize, record, process, or report financial data reliably i n accordance w ith g enerally accep ted
accounting principles such that there is more than a remote likelihood that a misstatement of the
University of M issouri's financial s chedules that is m ore than i nconsequential w ill not b e
prevented or detected b y the University’s internal c ontrols. W e consider t he d eficiencies
described in the accompanying schedule of findings and responses, below as Finding Nos. 1 and 2
to be significant deficiencies in internal control over financial reporting.

A m aterial w eakness i s a s ignificant deficiency, o r c ombination of s ignificant
deficiencies, t hat r esults in more than a r emote lik elihood t hat a material misstatement of t he
financial schedules will not be prevented or detected by the University's internal control.

Our consideration of internal control over financial reporting was for the limited purpose described
in the first paragraph of this section and would not necessarily identify all deficiencies in the internal
control tha t mig ht be s ignificant de ficiencies a nd, accordingly, would not ne cessarily di sclose a ll
significant deficiencies that are also considered to be material w eaknesses. H owever, w e b elieve
that none of the significant deficiencies described below are material weaknesses.

COMPLIANCE AND OTHER MATTERS
As p art o f obtaining r easonable as surance about whether t he U niversity o f Mi ssouri’s
financial s chedules ar e f ree o f m aterial m isstatement, we pe rformed t ests of the U niversity's
compliance w ith c ertain pr ovisions of l aws, r egulations, a nd N SF a ward terms and conditions,
noncompliance with which could have a direct and material effect on the determination of financial
schedule amounts. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not e xpress s uch a n opi nion. T he r esults of our
tests of compliance disclosed two instances of noncompliance that are required to be reported
under Government A uditing St andards and t he National Sc ience F oundation OIG A udit G uide
and which are described in the accompanying schedule of findings and responses as Finding Nos. 1
and 2.

The U niversity o f M issouri’s r esponses t o t he f indings i dentified i n our audit a re de scribed i n t he
schedule of findings and responses presented below and are included in their entirety in Appendix A.
We did not audit the University of Missouri’s response, and accordingly, we express no opi nion on
it.

This r eport i s i ntended s olely for t he i nformation a nd us e of t he University o f M issouri’s
management, NSF, the University’s cognizant Federal audit agency, the Office of Management and
Budget, and the Congress of the United States, and is not intended to be and should not be used by
anyone other than these specified parties.




McBride, Lock & Associates
October 16, 2009


                                                       8
                          SCHEDULE OF FINDINGS AND RESPONSES

Finding No. 1: Subawardee Monitoring is Inadequate and Needs to be Strengthened

The University did not adequately monitor subaward costs charged to three of the five NSF awards
audited, which included 11 subawards amounting to $9,164,036 or 61% of the total costs charged to
NSF. Although the University established written subaward monitoring policies and procedures, the
University did not always adhere to them. In addition, the existing subaward monitoring policies and
procedures should be strengthened.

Specifically, the University did not always adhere to its policy b y consistently s ending monitoring
letters a nd s ubawardee r isk a ssessment que stionnaires t o t he s ubawardees. F urthermore,
subawardee’s O MB C ircular A -133 a udit r eports w ere not regularly obtained a nd r eviewed, as
required, leading to the potential for inaccurate risk assessment results. These variations from policy
were b ased on s taff’s o pinion t hat s ufficient i nformation f or r isk a ssessment a nd m onitoring w as
obtained without performing the above procedures and reflect a lack of review and oversight by the
University.

Beyond a dhering t o e xisting University pol icy, s ubawardee m onitoring policies a nd pr ocedures
should be strengthened by mandating that subawardees di sclose the exi stence of relevant audits
performed b y ot her r egulatory F ederal audit agencies, s uch a s f ederal of fices of i nspector ge neral,
and i nternal a uditors w ith r espect t o s ponsored awards. C opies of such a udit r eports should be
examined by the University in order to ensure that subawardee’s internal controls were adequate to
record and r eport a ccurate c ost i nformation t o t he U niversity. The U niversity a lso s hould r equest
details of corrective action taken with respect to findings that may impact the subaward.

The de ficiencies not ed i n t he risk a ssessment, monitoring, r equest f or and r eview of ot her a udit
reports r educe t he e ffectiveness of t he University’s i nternal c ontrols ov er i ts s ubaward costs t o
identify s ignificant i nternal c ontrol weaknesses or i nstances of nonc ompliance a t s ubawardee
institutions. A s a r esult, the U niversity’s i nternal c ontrols ove r s ubaward c osts do not provide
assurance t hat t he e xpenditures r eported a nd c laimed b y t he s ubawardee a re a ccurate, va lid, a nd
allowable.

OMB Circular A-133, Subpart D, Section 400 (d.3), states that a pass-through entity shall perform
the f ollowing f or t he F ederal a wards i t m akes… ( 3) “Monitor the a ctivities of s ubrecipients a s
necessary to ensure that Federal awards are used for authorized purposes in compliance with laws,
regulations, a nd t he pr ovisions of c ontracts or grant a greements a nd t hat pe rformance goals a re
achieved.” T o e nsure compliance w ith t his s ection of O MB Circular A-133, t he U niversity’s
policies a nd p rocedures s hould be s trengthened a nd enforced with a goal of m ore t horoughly
evaluating and monitoring subawardees.

OMB C ircular A -21, Cost P rinciples f or E ducational I nstitutions, paragraph J 10 ( b)(1)(a) states
“The di stribution of s alaries a nd w ages, w hether t reated a s di rect or F &A c osts, w ill be ba sed on
payrolls doc umented in accordance w ith the g enerally a ccepted practices of col leges an d
universities”; paragraph J10 (b) (2)(a) s tates “The pa yroll di stribution s ystem w ill be incorporated
into the official records of the institution, reasonably reflect the activity f or which the employee i s
compensated by the institution,…”; and paragraph J10 (b) (2) (b) states “The method must recognize
the principle of after-the-fact confirmation or determination so that costs distributed represent actual
costs….”;

                                                     9
Subaward monitoring is a responsibility shared by the Office of Sponsored Programs Administration
(OSPA) – Subaward ne gotiator, t he Principal Investigator ( PI), t he OSPA’s Pos t-Award Division
and t he C ontroller’s Office. T he s ubaward n egotiator in the O SPA P re-Award D ivision i s
responsible for ensuring that a subaward is allowed by the terms of the award; that the subawardee is
aware of r equired c ompliance c onsiderations; a nd t hat a ppropriate t erms a re i ncluded i n t he
subaward agreement. The P I i s r esponsible f or m onitoring t he p erformance of and a pproving
payments t o the s ubawardee. The O SPA’s post-award di vision i s r esponsible f or r eviewing
payments m ade t o the subawardee and eva luating t hem in r elation t o t he a ward pr oposal and
subawardee a greement. The University Controller’s O ffice s upports a nd s upplements t hese e fforts
by performing a risk assessment of the subawardee and developing monitoring procedures pursuant
to the extent of risk identified.

The University’s pol icies and procedures, as s et forth i n Accounting P olicy M anual (APM) 60.85 ,
require t hat the University Controller’s O ffice p erform a r isk assessment of s ubawardees at l east
annually and prior to the initial award. The policy provides for the following actions identified as
items 1 through 4 below. The extent to which we noted adherence to policy is also described.

   1. Requirement - A Subrecipient C onfirmation Letter and a S ubrecipient Q uestionnaire are t o
      be s ent t o each subawardee, and t he r esponses a re t o be evaluated by t he U niversity
      Controller’s Office to help in assessing the risk of the subawardee improperly administering
      the award or reporting inaccurate cost data to the University.

       Status – We w ere i nformed t hat Subrecipient C onfirmation Letters a nd S ubrecipient
       Questionnaires are not sent if information is available elsewhere, such as through the on-line
       Federal A udit C learinghouse s ervice. W e e xplain be low how t he University’s us e of t his
       service is not adequate to assess the risks of the subawardees.

   2. Requirement - The Confirmation Letter is to be reviewed when returned to the Controller’s
      Office. T he C onfirmation Letter pr ovides th e s tatus of the entity’s A-133 audit a s
      incomplete, c ompleted or not r equired. F or t hose pot ential or e xisting s ubawardees w ho
      disclose in the Subrecipient Confirmation Letter that they have or will be receiving an A-133
      audit, the le tter r equests tha t the e ntity pr ovide a w ritten certification tha t “ no material
      instance of non -compliance, m aterial w eaknesses, a nd/or reportable c onditions w ere found
      relating to federal awards provided by the University”, or that findings were identified during
      the a udit. In t he event t hat f indings relating t o f ederal aw ards pr ovided by t he U niversity
      were identified, the entity is asked to provide the audit report. In the event the A-133 audit is
      not required, the Confirmation Letter directs the entity to complete and return a Subrecipient
      Questionnaire.

       Status – Confirmation Letters are ge nerally n ot r equested. A ccordingly, there i s no
       representation f rom t he s ubawardee t hat could va lidate t he on -line F ederal A udit
       Clearinghouse data form. F urther, without the audit report, the nature of any findings, such
       as inadequate payroll, procurement or cash controls, or inaccurate financial reporting, cannot
       be de termined. T hese f indings, w hile not ne cessarily s pecific t o a University a ward,
       nonetheless affect the risk of proper award management.

   3. Requirement - The S ubrecipient Q uestionnaire is t o be r eviewed w hen r eturned t o t he
      Controller’s O ffice. The S ubrecipient Q uestionnaire pr ovides a general description of t he
      subrecipient’s accounting policies and financial management system.

                                                   10
   Status – Because the Subrecipient Questionnaire onl y applies to entities receiving l ess than
   $500,000 i n federal funds and not s ubject to OMB C ircular A-133 audit requirements, it is
   rarely used by Missouri subawardees.

4. Requirement - After receipt of the above information a risk assessment i s to be performed.
   This risk assessment is intended to evaluate the suitability of the subawardee before a p ass-
   through award i s m ade, a nd, t hrough on going monitoring e fforts, t o r eview t he c ontinued
   status of the subawardee as having internal controls in place as appropriate for the accounting
   and a dministration of f ederal a ward f unds. The r isk a ssessment i s doc umented on a R isk
   Assessment W orksheet which i ncludes a s eries of que stions pe rtaining t o t he s ubawardee
   including:
       • amount of this subaward,
       • amount of other awards,
       • single or multi-year subaward,
       • new or in business for a long period of time,
       • adequacy of experience administering federal awards,
       • prior monitoring and audit results,
       • existence of adequate written policies and procedures,
       • management systems that meet standards mandated in OMB circulars,
       • evidence t hat t he subawardee is impl ementing audit r esolution, corrective a ction
           plans, and acting on disallowed costs,
       • fiscal health, and
       • prior experience with the subawardee.

   Status - The Risk Assessment Worksheet is completed in the Controller’s Office and is not
   subject t o r eview. It i s a lso not eworthy that many of t he que stions asked on t he R isk
   Assessment W orksheet c ould not be a nswered f rom t he i nformation obt ained i n t he
   Subrecipient C onfirmation Letter or t he S ubrecipient Questionnaire. Further, t he qu estions
   are structured in a manner that avoids the need for specific information or explanations. For
   example, “in business f or a l ong pe riod of t ime”, “ade quate ex perience”, “adequate w ritten
   policies and procedures” are not areas that can be obtained or assessed from the information
   provided on t he doc uments r equested. N onetheless, a ll of t he 11 R isk A ssessment
   Worksheets w e r eviewed c ontained onl y f avorable r esponses w ith r espect t o t he a bove
   questions.

5. Requirement - While not addressed in the APM 60.85, the Controller’s Office has established
   a pr ocedure r egarding the r eview of A -133 a udit r eports. T hese r eviews a re t o be
   documented on a Single Audit Report Review Checklist, which, with respect to A-133 audits,
   has 4 components, as follow:
       • Was an A-133 audit required (at least $500,000 in federal awards were expended,
       • Do A-133 audit findings apply to a grant administered by the University,
       • Are there unresolved prior audit findings, and
       • List the specific findings related to the federal program and/or award.

   For proposed or existing s ubawardees for which no f indings are i dentified as applying t o a
   University award, no review of the Single Audit Report Review Checklist is required. In the
   event t hat s uch a finding was i dentified, t he Assistant C ontroller f or P ost A ward Grants
   Administration would determine what actions were appropriate.

                                              11
       Status - None of t he s ubawards t ested dur ing t his a udit w ere c onsidered t o ha ve f indings
       applying t o U niversity awards. All w ere a ssessed a s l ow r isk. H owever, our t estwork
       identified f indings i n t he a reas of i nadequate c ontrols ove r p ayroll, procurement, ba nk
       reconciliations, i nadequate s egregation of dut ies, a nd i nability t o pr epare f inancial
       statements. While these findings do not specifically identify the University’s NSF subaward,
       their nature is such that they increase the risk of inadequate administration or reporting of all
       sponsored awards.

The risk assessment process is critical to subaward monitoring, because the adequacy and accuracy
of the risk assessment, including all of the above-described steps, dictates the amount and level o f
subaward m onitoring p erformed a nd t he e ffectiveness of t he m onitoring pl an a ssigned t o t he
subaward. Entities a ssessed as l ow risk receive no f urther m onitoring b y the C ontroller’s O ffice.
While none of the entities we tested were assessed as high risk, we were informed that a hi gh risk
assessment c ould r esult i n f urther de sk r eviews b y t he C ontroller’s O ffice, s ite vi sits t o t he
subawardee, or a requirement for submission of additional documentation.

In order to validate the subaward charges to the awards being audited, we performed additional audit
tests a t t he U niversity a nd t wo m ajor s ubawardees. We s elected t he files of 11 s ubawardees f or
review and found that only two subawardees had returned the completed Subrecipient Confirmation
Letter. N one ha d r eturned t he R isk A ssessment Questionnaire f or Subawardees because t hey m et
the requirement for an A-133 audit.

We noted above that all 11 subawardees were assessed as low risk, although one of the subawardees’
A-133 a udit r eported a n unr econciled ba nk ba lance r equiring a $3.6 m illion a djustment, a nother
subawardee’s A-133 audit reported inadequate segregation of duties within the accounting function,
the i nability o f t he accountant t o prepare t he f inancial s tatements, and the abs ence o f a w ritten
procurement pol icy, a nd a t hird s ubawardee’s A -133 a udit r eport di sclosed a t heft f rom a n N SF
award in the amount of $11,766 due to improper use of a procurement card. Although these findings
impact t he r isk of i nadequate f ederal a ward a dministration, none w ere m entioned on t he R isk
Assessment Worksheet and, as discussed above, all subawardees were assessed as low risk.


Specifically, we noted the following weaknesses in the prescribed procedures during our audit:

1. Of t he 11 s ubawardees t ested, onl y 2 ha d r eturned t he Subrecipient Confirmation Letter a nd 6
   had provided their A-133 audit report. We were informed that these documents were not always
   requested because the assigned staff chose to instead utilize information from the subawardee’s
   OMB Circular A-133 Data Collection Form, which is a summary of A-133 audit results available
   on-line t hrough H arvester C ensus. T he r emaining 5 subawardees were reviewed by t he
   University through the Harvester system. However, information set forth on the Data Collection
   Form does not provide detail as t o t he s pecific nature of t he finding. As a result of us ing onl y
   summary i nformation from t he D ata C ollection F orm, one s ubawardee, M ichigan S tate
   University, w as i naccurately assessed a s l ow r isk. O nly t hrough review of t he A -133 r eport
   would the University have known that a theft involving NSF funds, as described above, had been
   reported.

   Failure to obtain the S ubrecipient C onfirmation Letter le aves the U niversity w ithout w ritten
   representation by t he s ubawardee as t o the s tatus of A -133 c ompliance and t he s ubawardee’s
   assessment a s to the e xistence o f f indings tha t may impa ct the N SF subaward. T his w ritten
   certification should be obtained for all subawardees and should serve as the starting point for the
                                                    12
   University’s own efforts to secure the A-133 audit report and evaluate the findings and opinions
   set f orth t herein. In a ny case, w e believe t he A-133 a udit r eports s hould be obt ained and
   reviewed to affirm the information obtained on the Subrecipient Confirmation Letter.

   In addition, t he f ile of one of t he s ubawardees ( University of M innesota) di d not c ontain a
   Confirmation Letter or a Questionnaire, nor was a Harvester search performed. However, an A-
   133 audit r eport w as in the U niversity’s f ile and it ide ntified significant c ontrol de ficiencies,
   including f ailure t o r econcile i ts ba nk a ccount, a nd t hese f acts w ere not not ed or t aken i nto
   consideration on the University’s Risk Assessment Worksheet.

   For another subawardee (Horizon Research, Inc.) a Confirmation Letter, an A-133 audit report,
   and a Data Collection Form were on f ile. B oth the A-133 audit report and the Data Collection
   Form ide ntified material c ontrol de ficiencies, significant c ontrol w eaknesses a nd findings of
   noncompliance. T he Data C ollection Form s pecifically id entified the f indings a s a ffecting the
   NSF award                      The actual findings involved inadequate segregation of duties within
   the accounting area, inability of the accounting staff to prepare financial statements, and the lack
   of a written pr ocurement pol icy. T he C onfirmation Letter r evealed t hat a s entence ha d be en
   manually crossed out w hich r ead “Material i nstances o f non compliance, material w eaknesses
   and/or reportable conditions were found relating to federal awards provided by the University.”
   Notwithstanding the above facts, the entity was assessed as Low Risk on the Single Audit Report
   Review Checklist and the Risk Assessment Worksheet merely noted that, although prior findings
   were repeated, “they were not related to funding provided by MU.” We were informed that this
   conclusion was the result of a conversation between the Controller’s Office and the subawardee.
   However, considering the pervasive nature of the A-133 audit findings, impacting segregation of
   duties over accounting, financial reporting and procurement, the conclusion that the findings are
   “not r elated” t o t he N SF a ward pr oviding f unding t o t his s ubawardee i s not s upported b y t he
   evidence i n t he s ubawardee file. If additional i nformation i s obt ained t hat s upports a l ow risk
   assessment, it should be documented on the Risk Assessment Worksheet.

2. The U niversity’s practice includes c ompletion of a S ingle A udit R eport R eview C hecklist.
   University procedures do not include inquiring as to the existence of audits by other regulatory
   agencies, s uch as f ederal O ffices of Inspector G eneral or i nternal a uditors or obt aining t hose
   reports, if they exist. We visited and conducted audit procedures at two subawardees, Western
   Michigan U niversity and t he U niversity of A rizona, a nd de termined that a udit r eports b y
   regulatory a gencies and/or i nternal auditors, h ad been i ssued and t he reports identified internal
   control weaknesses that could affect the subawardee’s ability to report accurate cost information
   to t he U niversity. Had the University process included r equesting relevant r eports f rom ot her
   federal and internal auditors, the internal control weaknesses at these two subawardees, both of
   which received substantial amounts of federal award funds from the University, would have been
   identified. Further, the risk assessment for these two universities would likely have been revised
   from t he l ow r isk c ategory or iginally assigned t o a h igher r isk c ategory r equiring f urther
   investigation and monitoring efforts.

   As f urther e vidence o f the ne ed f or a hi gher r isk a ssessment c ategorization, w e noted t he
   following deficiencies at subawardees, some of which were reported by other auditors during the
   term of the subaward:




                                                    13
   Western Michigan University (WMU)

       WMU is one of five subawardees for t he N SF A ward N o.                                r eceiving
       $1,382,362 f rom t he U niversity. W MU does not m aintain documentation of l abor hour s
       worked or a bsences from w ork b y graduate s tudent e mployees. Neither time s heets n or
       exception r eporting i s e mployed t o s upport graduate s tudent pa yroll c harged t o s ponsored
       awards, a nd t hus doe s n ot pr ovide doc umentation of p ayroll cha rges as required by O MB
       Circular A-21, J10 (b)(1)(a) and J10 (b)(2)(a).

       Western M ichigan U niversity doe s not r equire d ocumentation a s t o t he purpose of f ederal
       award cha rges r ecorded by cost t ransfers i f s uch t ransfers ar e m ade w ithin 90 days of the
       charge date, in violation of OMB Circular A-21, J10 (b) (2) (b).

   University of Arizona (UA):

       The U A i s one of s ix s ubawardees f or t he NSF A ward N o.                      r eceiving
       $1,917,178 f rom t he U niversity. Certified effort reports were not s igned by s omeone w ith
       knowledge of the work performed or suitable means of verification and thus are not reliable,
       during m ost of N SF a ward pe riod (remedied in January 2008 ). T he a uditors pe rformed
       alternative procedures to affirm the allowability of these costs.

       The University of Arizona does not have a system of controls in place that require a Principal
       Investigator t o accurately charge t ime s pent on an award as ei ther cha rged to the aw ard or
       charged as com mitted cost s hare w ith the or ganized research base adj usted accordingly.
       Presently, the University’s chart of accounts does not accommodate charges to an award that
       represent contributed effort.

       Although t here w as no c ost s hare c ommitted f or t he a ward pa ssed t hrough b y M U t o t he
       University of Arizona, it has been noted that UA’s current management systems do not have
       the c apabilities t o r ecord, t rack a nd r eport c ost s haring d ata i ncluding labor c ost s haring
       commitments and expenditures to specific sponsored projects as required by OMB Circular
       A-21, J.10.(b)(1)(a). If c ost s hare ha d be en pr esent, i t w ould not ha ve a ppeared on e ffort
       reports, therefore making them inaccurate. We do not know if the University has any other
       subawards with UA supported by NSF or other federal award funds that require cost share.

As illustrated above, the absence of adequate risk assessments subject to supervisory review results
in t he om ission of i nformation r egarding subawardee internal c ontrols and c ompliance that c ould
result in inaccurate risk assessments and increase the risk that unallowable costs could be charged to
the U niversity a nd c laimed t o N SF. The U niversity w as not aw are of t he i nadequate s ubawardee
internal c ontrols and no ncompliance i dentified and r eported b y ot her f ederal r egulatory auditors,
internal auditors a nd A -133 a uditors. Therefore, the University could not t ake appropriate
precautionary measures to ensure that charges to MU subawards are not adversely impacted.

The University did not have adequate subawardee monitoring due to a lack of comprehensive review
and ove rsight practices. These monitoring de ficiencies c ould a llow i mproper or una uthorized
charges to be incurred and allocated to the University’s NSF awards.

The University’s policies and procedures should be revised, implemented and monitored to provide
more ef fective subaward monitoring and greater as surance t hat al lowable s ubaward costs ar e
charged to the NSF awards.

                                                     14
Recommendation No. 1

We recommend that NSF’s Director of the Division of Institution and Award Support ensure that the
University:
   1. Send out the Subrecipient Confirmation Letter and Subrecipient Questionnaire, if applicable,
       to a ll s ubawardees a s p art of t he r isk assessment a nd on going m onitoring p rocess at l east
       annually and prior to the initial award as the University requires;

    2. Request a nd t horoughly review A -133 a udit r eports (in a ddition to or i n lieu of H arvester
       reports) and reports from other regulatory agencies and internal auditors for all subawardees
       as part of the risk assessment review;

   3. Document the r ationale or jus tification on t he R isk A ssessment Worksheet us ed b y t he
      evaluator to arrive at the assigned risk assessment level;

   4. Designate supervisory personnel to perform a review of risk assessments; and

   5. Follow-up t o de termine if w eaknesses di scussed i n t his r eport t hat were ide ntified in the
      University’s s ubaward’s audit reports have be en adequately resolved and, i f not , d etermine
      whether greater subaward monitoring is needed.


Awardee's Comments

The University of Missouri does not concur with the finding that the University did not adequately
perform m onitoring of i ts s ubrecipients. T he U niversity implemented a dequate pol icies and
procedures f or s ubrecipient m onitoring e ffective J uly 1, 2007 t hat a re i n c ompliance w ith O MB
Circular A -133. T he U niversity’s external a uditors ha ve s tated t he U niversity’s s ubrecipient
monitoring procedures are adequate and in compliance with OMB Circular A-133.

   1. The University sends the Subrecipient Confirmation Letter and Subrecipient Questionnaire to
      only those subawardees where it is unable to obtain sufficient documentation to complete the
      risk a ssessment. T he U niversity de termines f rom r eview of t he Harvester R eport or t he
      subrecipients’ A-133 report if the subrecipient had any findings, questioned costs, significant
      control deficiencies, or material control weaknesses. If t here are no a udit findings, t he date
      and results of the review are documented and the risk assessment is completed. If findings,
      questioned costs, significant or material control weaknesses are noted in the Harvester Report
      and the University has not yet obtained the A-133 report, the University sends a Subrecipient
      Confirmation Letter to the subrecipient to obtain the A-133 Report and confirmation that is
      not r elated t o our f inding. If a udit f indings are r elated t o University subawards, t he
      University will make a decision regarding the appropriate steps to take, including any follow
      up action by the University and the subrecipient. Follow up b y the University on corrective
      action may include site visits, desk reviews or review of subsequent audit reports.

       The draft audit report incorrectly indicated that a confirmation letter was not obtained from
       the U niversity of M innesota. A certification l etter w as pr ovided b y the U niversity of
       Minnesota prior to the completion of the A-133 audit review and risk assessment.



                                                    15
    2. The U niversity r eviews A -133 A udit R eports; how ever, r eview of reports f rom ot her
       regulatory agencies a nd i nternal a uditors f or a ll s ubawardees i s not required b y OMB
       Circular A-133.

    3. The rationale or justification for the risk assessment level is adequately documented on t he
       Risk Assessment Worksheet.

    4. The University agrees with the recommendation that the risk assessment should be reviewed
       by supervisory personnel and will revise its policies and procedures accordingly.

    5. The U niversity w ill f ollow up to determine if t he w eaknesses ide ntified in t he dr aft a udit
       report ha ve be en a dequately r esolved a nd, i f not , de termine i f a dditional m onitoring i s
       needed.


Auditors' Response

We are not i n a greement w ith t he U niversity of M issouri’s r esponse which states that it ha s
implemented adequate policies and procedures for subrecipient monitoring. While we agree that the
University’s policy pertaining to distribution of Subrecipient Confirmation letters and Subrecipient
Questionnaires is acceptable, it is not followed. To the extent that the policy omits the requirement
to c onsider a udit r eports of ot her r egulatory a gencies a nd i nternal a uditors, i t is not s ufficiently
comprehensive. A lso, t he C ontroller’s O ffice p rovided doc uments r equested b y t he a uditors on
March 11, 2009 but a S ubrecipient C onfirmation Letter f or t he University of M innesota w as not
provided. Our comments on the University’s detailed responses follow:

    1. The policy, as set forth in APM-60.85, provides that a monthly monitoring report will be run
       to de termine w hether s ubaward m onitoring i nformation i s i ncomplete. T he pol icy t hen
       states specifically the following:
            “If the s ubaward monitoring inf ormation is inc omplete the C ontroller’s Office will
            follow up with the subrecipient. For those entities with active subawards that have not
            been r eviewed w ithin t he pa st 12 m onths, t he Controller’s O ffice w ill note i n t he
            financial s ystem t hat t he s ubrecipient doe s not have a c urrent risk a ssessment a nd
            either send t he Subr ecipient M onitoring L etter and Subr ecipient M onitoring
            Questionnaire [emphasis a dded] or f or t hose w ith i ncomplete i nformation t ake t he
            follow-up action identified in the report.”

        The U niversity’s r esponse c onfirms t hat i ts practice, w hich i s t o send S ubrecipient
        Confirmation l etters a nd S ubrecipient Q uestionnaires onl y i f a H arvester R eport i s
        unavailable, is inconsistent with University policy. This practice relies on the accuracy of the
        Harvester R eport a nd t he l imited i nformation i t pr ovides. T his de viation f rom a pproved
        policy also pr ecludes t he U niversity f rom obt aining a w ritten r epresentation f rom t he
        subawardee that could validate the on-line Federal Audit Clearinghouse data form.

        Further, while the University’s response states that, if findings are noted, an A-133 report is
        obtained, t his s tatement i s c ontradictory t o our f inding t hat one s ubawardee h ad f indings
        reported b y H arvester b ut no A -133 a udit r eport i n i ts f ile. T his pa rticular s ubawardee’s
        audit report disclosed a finding that $11,766 was fraudulently charged to the NSF.

                                                      16
   2. With respect to an OMB Circular A-133 requirement to review reports from other regulatory
      agencies and internal a uditors, bot h C ircular A -133 a nd A -110 address s ubrecipient
      monitoring. T he University’s own policy reiterates the provisions of OMB Circular A-110
      by stating:
          “OMB C ircular A -110 requires the U niversity to establish a system of int ernal
          controls t o e nsure t hat subrecipients us e f ederal f unds i n a ccordance with l aws,
          regulations and contract/grant agreements.”

          OMB Circular A-133, Subpart D, Section 400 ( d.3), states that a pass-through entity
          shall:

           “Monitor t he act ivities of s ubrecipients as ne cessary t o ensure t hat F ederal aw ards
          are us ed f or a uthorized pur poses i n c ompliance w ith l aws, r egulations, a nd t he
          provisions of contracts or grant agreements and that performance goals are achieved.”

      The identification by the auditors of audit reports from other regulatory agencies and internal
      auditors disclosing s ignificant i nternal c ontrol w eaknesses a t t wo s ubawardees, w eaknesses
      that coul d affect t he s ubawardee’s ability t o r eport a ccurate cost i nformation t o t he
      University, pr ovides evidence t hat if the U niversity adopted these r eport r eviews greater
      internal control over subawardee monitoring would result.

   3. With respect to documentation of risk assessment level, we noted that all documentation was
      substantially the same, with all risk assessments being low. Even the subrecipient whose A-
      133 a udit r eport di sclosed 3 s ignificant i nternal c ontrol de ficiencies i ncluding 1 m aterial
      weakness i n i nternal controls, all of w hich w ere applicable t o its N SF a ward, was r ated a
      low, with the following rationale:

          “Even though this is a multi-year, large-sized award and a material percentage of the
          total federal expenditure for the subrecipient for FY 08, t here appears to be adequate
          controls in place to mitigate any potential risk. Therefore, risk has been assessed at
          low.”

      This l evel of doc umentation i s not s ufficient t o provide f or a n i nformed r eview of t he r isk
      assessment and its conclusion.

   4. The University’s comments are responsive to the finding and recommendation.

   5. The University’s comments are responsive to the finding and recommendation.


This finding should not be closed until NSF determines that the recommendation ha s be en
adequately addressed and the proposed corrective actions have been satisfactorily implemented.




                                                   17
Finding No. 2: A ll L abor C ost T ransfers S hould be Adequately Justified, Approved a nd
Documented and All Effort Verification Reports Should be Recertified When Related Payroll
Charges are Subsequently Adjusted

The U niversity doe s no t ha ve adequate i nternal cont rols and safeguards i n place t o adequately
process al l l abor cost t ransfers o r t o ensure t hat l abor ef fort ce rtifications ar e pr operly r ecertified
once pa yroll a djustments a re m ade, as r equired by i ts ow n pol icies. Labor c ost t ransfers m ay b e
needed to correct an error, transfer charges from a p re-award account to a newly-funded award, or
transfer charges based on recognition of changes in an employee’s assignments.

The University has adequate policies and procedures for processing payroll corrections made more
than 2 accounting pe riods a fter t he a ccounting pe riod i n w hich t he or iginal e ntry w as m ade,
however, i nternal c ontrols t o e nsure a dherence t o t hese pol icies a nd pr ocedures are i nadequate.
Further, the policies and procedures for labor cost t ransfers m ade t o or b etween s ponsored awards
within 2 accounting pe riods of t heir e ffective date are i nadequate. T hey can be i nitiated and
processed electronically s olely b y fiscal of ficers i n ope rating de partments w ithout a dequately
documented explanations and justifications or documented approval or secondary review. Therefore,
the pol icies a nd pr ocedures f or l abor cost t ransfers m ade w ithin 2 a ccounting pe riods should be
revised to ensure t hat al l l abor cos t t ransfers a re adequately documented, j ustified, a pproved a nd
properly charged to the NSF awards.

In addition, certifications that payroll charges have been correctly allocated to federal awards are not
always r evised t o r eflect s ubsequent c hanges b y a p ayroll a djusting e ntry, a s required, when a
change to payroll allocations was made subsequent to the original certification. Recertifications are
required when a payroll change had an impact of greater than five percent of the original labor cost
charged. Therefore, labor c ost t ransfers a nd p ayroll a djusting e ntries w ere pr ocessed w ithout
adequate c ontrols s uch a s pr oper approvals, proper explanations, or , i n s ome c ases, a dequate
documentation to support the adjustment such as recertified effort reports.

The lack of proper documentation, approval and secondary review of labor cost transfers and proper
certification of effort reporting increases the risk that irregularities or embezzlements that affect NSF
and federal grant funds could occur and go undetected. In addition, if the University fails to address
these compliance and internal control weaknesses, similar problems may occur on the other existing
278 current active NSF awards and on future NSF awards.


OMB Circulars and University of Missouri’s Policies Applicable to Payroll Cost Transfers and
Certification of Labor Effort Reports

Applicable f ederal r egulations r equire t hat an a cceptable s ystem f or t he administration of f ederal
awards i ncludes s ource documentation t o s upport recorded t ransactions, documented approvals f or
changes t o recorded t ransactions, a nd a ppropriate s egregation of dut ies, s o t hat no one p erson ha s
complete control over a financial transaction.

OMB C ircular A -110, Uniform A dministrative R equirements f or G rants and A greements w ith
Institutions of H igher E ducation, H ospitals, and O ther N on-Profit O rganization, requires e ntities
receiving Federal awards to establish and maintain internal controls that are designed to reasonably
ensure compliance w ith Federal l aws, r egulations, a nd p rogram c ompliance. S ection C .21.b.(7) of
Circular A -110 s tates t hat “R ecipients’ financial ma nagement s ystems s hall pr ovide f or the

                                                        18
following…accounting r ecords i ncluding c ost a ccounting records t hat a re s upported b y s ource
documentation.” Documentation pr ovides a n a udit t rail a nd t he means t o s upport t he pr opriety of
transactions, and therefore, is crucial to effective oversight and monitoring of award charges b y an
independent party.

OMB C ircular A-21, Cost P rinciples f or E ducational I nstitutions, J.10.(c).(1)(d) s tates t hat
“Whenever it is a pparent tha t a s ignificant c hange in work activity w hich is directly or indirectly
charged to sponsored agreements will occur or has occurred, the change will be documented over the
signature of a responsible official and entered into the system.”

Consistent w ith the C ircular A -21 r equirement f or “ sound bus iness m anagement pr actices,” Sec.
C.4.(d)(2) requires adequate pol icies t o ensure p roper s egregation of dut ies over ke y processes. It
specifically s tates t hat, “The institution’s f inancial m anagement s ystem shall e nsure t hat no one
person has complete control over all aspects of a financial transaction.” Best business practices also
recommend s egregation of dut ies and authorization c ontrols f or t he di sbursement p rocess.
Segregation of dut ies, whereby no s ingle i ndividual ha s c omplete c ontrol ove r a financial
transaction, i s essential t o effective i nternal control. B y assigning s eparate i ndividuals t o authorize
transactions, process transactions, monitor those activities, maintain related accounting records, and
handle t he r elated assets, t he r isk of error or opportunity t o m isuse o r m isappropriate a ssets is
reduced.

OMB Circular A-21, paragraph J .10 ( b)(2)(a) s tates tha t “ The p ayroll di stribution system w ill b e
incorporated into the official records of the institution, reasonably reflect the activity for which the
employee is compensated by the ins titution,…”; a nd p aragraph J .10 ( b)(2)(b) s tates “ The m ethod
must recognize the principle of after-the-fact confirmation or determination so that costs distributed
represent actual costs.

The University’s own policies also acknowledge these principles. The University’s BPM 213 states
that “Because of federal regulations, appropriate justification must be documented for all correction
entries made.” The BPM 213 f urther states that “Entries for payroll/benefits expense must be made
using the UM Web Applications Payroll Correcting Entry (PCE). The University's effort reporting
system required by federal regulation (OMB Circular A-21) is produced from the financial system.
When t he U niversity's effort r eports ha ve be en certified a nd s ubsequently a P CE i s r equired t hat
conflicts w ith t he effort r eport, a dditional a ctivities a nd doc umentation m ay be r equired.
Discrepancies be tween the c ertified effort r eport a nd t he f inancial r ecords c ould l ead t o a udit
disallowances, significant fines and financial sanctions.”

Details Concerning Undocumented and Unapproved Labor Cost Transfers

Undocumented and unapproved labor cost transfers occurred because the University’s policies place
sole authority w ith t he ope rating de partment f or i dentifying, i nitiating, r ecording a nd a pproving
payroll cost transfers that are made within 2 accounting periods (i.e. timely) of their effective date.
Business P olicy Manual ( BPM) S ection 213 s tates “ Any correction of i ncome or expense i tems
between ChartFields s hould be m ade within t wo accounting periods (two months) after t he end of
the a ccounting pe riod i n w hich t he o riginal t ransaction pos ted, i .e., i f a transaction pos ts w ith a
February 2 date, any corrections must be made by the end of the accounting period for April.” The
University’s a ccounting s ystem pr ovides a ccess a nd a ssigns r esponsibility t o de partmental f iscal
officers to initiate these “timely” payroll correcting entries. As set forth in the University’s training


                                                      19
materials 1, t he ope rating de partment f iscal of ficer’s r esponsibilities i n this ar ea i nclude “prepare
timely cost transfers” and “ensure documentation exists for all charges”.

Explanation of Procedures Used to Process Labor Cost Transfers

The University’s prescribed procedures for payroll corrections after 2 accounting periods (i.e. late
transfers) are thorough and, as outlined in the BPM, require the department to:

        1. Document that the expense proposed by PCE is allowable on the project.

        2. Document that the expense proposed by the PCE directly benefits the project and
           represents a more accurate allocation of expense to the project than the existing expense
           allocation.

        3. Recertify the Effort Verification Report (EVR) if the request for a late PCE is approved.

        4. Approve and document approval of the PCE form by:
          a. The individual whose payroll is changing;
          b. Principal Investigator or approved signer for the funding source(s);
          c. Department chair or equivalent for a) and b); and
          d. Dean or equivalent for a) and b).

        5. Forward t he do cumentation t o S ponsored P rograms O ffice ( SPO) a nd notify t heir S PO
           accountant who will assess the impact of the PCE on t he project (e.g., refunds to sponsor,
           resubmitting final financial reports on closed projects, etc.).

        6. Forward a ll t he doc umentation i n one pa ckage t o S PO f or r eview of t he P CE(s), i f t he
           proposed payroll adjustment covers multiple pay periods within a single EVR.

        SPOs responsibilities for these PCE transactions include:

        1. The S PO a ccountant h andling t he pr oject w ill r eview t he do cumentation a nd pr ovide a
           recommendation to SPO management. SPO management will review the documentation and
           recommendation, a nd make a pr eliminary d ecision of w hether t he pr oposed P CE is
           appropriate.

        2. If the proposed PCE changes funding on t he current certified EVR so that any funding line
           changes b y mor e tha n 5%, SPO w ill r eprint the or iginal E VR f or r ecertification by th e
           individual.

        3. Upon return of the recertified EVR, the SPO will complete a final review. If approved, the
           SPO will make a late PCE and notify the department of the Journal ID. If not approved, the
           SPO will notify the department of the reason(s).

Unlike t he ex tensive r eview a nd do cumentation procedures de scribed above, t he s ame c hanges, i f
initiated by a fiscal officer in an operating department within the 2 accounting period timeframe, are
not s ubject t o c ontrols that e nsure a ppropriate documentation, w ritten j ustification or a pproval.

1
    Training presentation entitled Cost Transfers and Payroll Correcting Entries, delivered March 11, 2009
                                                             20
While doc umentation is theoretically required of a ll pa yroll c orrecting entries, labor c ost t ransfers
made t o or b etween s ponsored a wards w ithin 2 accounting pe riods of t heir e ffective da te can, in
practice, be i nitiated and processed electronically w ithout documented a pprovals o r s econdary
review by the department. The labor cost transfers can be made without the use of a PCE form and
without involvement or documented approval by the PI, Department Chair, Dean or OSPA. Often a
cost tr ansfer is ini tiated b y the f iscal of ficer a t the di rection of a P I. However, without the P I’s
documented justification, review and approval o ne cannot t ell i f t he ent ry was m ade as i ntended.
Also, the process which notifies the SPO of the need to generate a r evised EVR is not in place for
“timely” l abor c ost t ransfers, a nd t hus t here i s no c ontrol w hich e nsures t he S PO f ulfills t his
responsibility.

We noted that, for the awards audited, from inception of award through December 31, 2008, there
were 117 pa yroll correcting entries with a net dollar impact of increased salary costs charged to the
sampled NSF aw ards by 2 percent, or $34,057. This net i ncrease was comprised of cost t ransfers
increasing N SF-funded salary c osts b y $ 67,725, offset b y t ransfers reducing s alary cos ts i n the
amount of $33,668.

We pe rformed a dditional a udit te sts inc luding reviewing the pa yroll registers f or a ll pe rsonnel
charged t o t he N SF a wards unde r a udit, i dentifying pa yroll c orrecting e ntries, a nd t esting hi gher
dollar payroll correcting entries in order to understand the nature of the corrections. For 1 o f the 5
payroll cost transfers tested (a late transfer), despite the stringent internal controls over cost transfers
made a fter t wo a ccounting p eriods, no do cumentation w as a vailable t o s upport t he t ransaction
totaling a ne t $ 19,635. O nly a fter a s eries of i nquiries of a ccounting department a dministrative
personnel a nd ope rating de partment fiscal o fficers w ere r easonable e xplanations obt ained. T hese
explanations were based on r ecollections rather than documentation. For another 1 of the 5 pa yroll
cost transfers (a “timely” cost transfer) for $2,083, audit inquiries to determine the justification for
transfer revealed t hat no doc umentation of j ustification f or the t ransfer c ould be l ocated.
Accordingly, 2 of t he 5 pa yroll c ost t ransfers t ested w ere not doc umented i n c ompliance w ith
University policy. In each case the auditor performed alternative tests to verify the reasonableness
of the transaction.

The relatively small ne t a mount of p ayroll a djustments doe s not ne gate t he pot ential exposure t o
improper pa yroll c harges due t o t hese i nternal control w eaknesses. O ver 117 l abor c ost t ransfer
transactions, or 2 pe r cent of all payroll entries applied to the audited awards, were processed by a
system t hat doe s not e nsure adequate doc umentation, doc umented a pproval, or s econdary r eview.
Failure to address these compliance and internal control weaknesses could allow similar problems to
occur on the other existing 278 current active NSF awards and on future NSF awards.

The University’s practice of not documenting cost transfer justifications is not compliant with OMB
Circular A-110 or the University’s own business manual which recognizes that, “Because of federal
regulations, a ppropriate j ustification m ust be documented f or a ll c orrection e ntries m ade.” I n
addition, be cause a s ingle i ndividual, the de partment f iscal of ficer, has c omplete c ontrol ove r a
financial t ransaction, a nd be cause of i nadequate a uthorization ove rsight and i nternal controls ov er
processing pa yroll t ransactions, t he U niversity’s di sbursement pr ocess i s i nadequate. W hen on e
individual has access to all aspects of a t ransaction, it increases the risks of irregularities and fraud
and does not ensure compliance with OMB Circular A-21’s requirement that all payroll adjustments
“be documented over the signature of a responsible official and entered into the system”. Further,
because adjustments are, by their nature, outside of the normal processing cycles, documentation of


                                                     21
the cause, rationale and proper approval is important to provide an audit trail and proper support and
secondary review for the transaction.

During 2009 M U o fficials a ttempted t o s trengthen i nternal controls ov er c ost t ransfers t hrough
education of P Is a nd f inancial of ficers a t t he de partments, a nd a s eries of w ritten c ommunications
and training cl asses de signed to enc ourage t imely p rocessing o f c ost transfers a nd t he us e o f
appropriate do cumentation. H owever, dur ing t he pe riod of t he N SF a wards s ubject t o a udit, s uch
controls were not in place. Further, even in 2009, controls to ensure that “timely” cost transfers are
documented and authorized are insufficient.

The University has recognized the concern and sensitivity of Federal awarding agencies to improper
cost transfers. The University is also aware that other universities have been cited for disallowances
and ha ve w idely communicated t his i nformation t o U niversity of M issouri of ficials a nd P rincipal
Investigators i n or der t o i ncrease t he pe rceived i mportance of e ffective, t horough and t imely
monitoring of a ward charges. However, ve rbally c larifying t he i mportance of appropriate
justifications a nd s ufficient doc umentation i s no t e ffective i f t he pr ocedures a re not i n pl ace t o
provide f or a dequate a pprovals a nd doc umentation a nd t hose pr ocedures a re not a dequately
monitored to ensure that they are being implemented effectively. All transactions, including labor
costs, s hould ha ve a dequate s upporting doc umentation, e xplanation of purpose, a nd e vidence of
supervisory review and approval.

Details Concerning the Lack of Recertified Effort Verification Reports.

Payroll correcting entries may result in new or revised charges to federally-sponsored awards. Labor
charges t o federally-sponsored a wards a re t o be s upported b y c ertified l abor e ffort r eports. T hese
reports are generated as part of the University’s after-the-fact confirmation process which documents
the accuracy of labor charged by including a certification from a person with first-hand knowledge
of the effort expended. A udit tests performed during this audit with respect to the effort reporting
process r evealed that t he af ter-the-fact confirmation pr ocess doe s not a lways oc cur a s ne eded t o
validate adjusted payroll c harges. S pecifically, i n c onnection w ith our t ests of pa yroll c orrecting
entries and effort reports, we determined that effort reports are not always re-certified to validate the
adjusted payroll charges as required by the University’s Business Policy Manual.

The abs ence of r e-certified e ffort r eports w as c aused be cause t he O ffice of S ponsored P rogram
Administration ( OSPA) procedures do not e nsure a dherence t o U niversity pol icy as t hey do no t
consistently id entify P ayroll C orrecting E ntries which occur a fter E VR c ertification of the r elated
payroll charges. The University’s policy as set forth in BPM 213 states that “When the University’s
effort reports h ave b een certified and s ubsequently a P CE i s required t hat conflicts with t he effort
report, a dditional a ctivities a nd doc umentation may be r equired.” B PM 213 .4 states t hat “ The
proposed PCE must be compared to the existing certified Effort Verification Report (EVR). If more
than a 5% difference in any funding line will result, a recertification of the EVR will be required if
the r equest f or a l ate P CE i s a pproved.” B PM 213.8 f urther pr ovides t hat “ If t he pr oposed P CE
changes f unding on t he current certified E VR s o t hat a ny funding l ine c hanges b y m ore t han 5 %,
SPO will reprint the original EVR for recertification by the individual.”

However, the EVR guidance in the Accounting Policy and Procedures Manual is contradictory to the
above-sited Section 213 of the BPM in that it states that a revised EVR will not be reprinted even if
the effort allocation estimate (EAE) differs by more than 5%. APM-60.32 states that “If significant
(>5%) differences exist between EAE and payroll distribution percentages for any funding line, the

                                                      22
necessary PCE(s) must be made…….A revised EVR will not be produced.”

In order to test whether appropriate documentation, written justification and approval was obtained
even in the absence of controls to ensure adherence to these internal control concepts we performed
audit tests over four effort reports selected from four awards covering the period from July 1, 2006
through D ecember 31, 2008. O ne of t he f our E VRs t ested di d not a gree t o t he r elated pa yroll
records by a material amount, i.e., payroll charges to NSF as certified on the EVR were overstated
by 51 percent, or $12,495. The discrepancy occurred because the EVR, which reported 100% of the
subject’s labor as relating to an NSF award, had been certified as correct prior to the initiation of a
payroll correcting entry (PCE) which revised t he allocation of l abor costs, reducing charges t o t he
NSF award by $12,495. To determine whether this exception was an unusual isolated instance, we
inspected two additional EVRs for which PCEs were posted after EVR certification. One differed
by an immaterial am ount of l ess t han five pe rcent, and one di ffered by a m aterial va riance of 1 2
percent, or a $4,465 reduction in charges to the NSF award. Accordingly, two (2) of six (6) EVRs
tested were inaccurate by material amounts due to late posting of PCEs without a corresponding re-
certification of the EVR. These test results reveal that the after-the-fact confirmation process does
not always occur as needed to validate adjusted payroll charges.

Summary

In summary, there is no requirement for independent review or approval of payroll correcting entries
initiated w ithin t wo a ccounting pe riods of t he e ffective da te nor a re t here c ontrols t o e nsure t hat
written justification and explanations a re obtained a nd r etained for la te or time ly pa yroll c ost
transfers. Further, c ontrols a re i nadequate t o e nsure t hat e ffort r eports a re r e-certified t o pr ovide
support for adjusted payroll charges to federal awards.

These l imitations on c ost t ransfer doc umentation a nd r ecertification of e ffort r eports r esult i n
insufficient s upport f or transactions t hat, b y t heir ve ry na ture, i nvolve r evisions t o a pr eviously
approved cost accounting transaction. The adjustment of payroll charges to another account after the
charges ha ve be en certified as correctly al located reduces t he cr edibility of t he effort c ertification
process and also results in payroll charges to sponsored awards that are contradicted by the certified
effort reports and thus are unsupported.

The lack of proper documentation, approval and secondary review of labor cost transfers and effort
reporting al so increases the r isk that i rregularities or em bezzlements t hat af fect N SF and federal
grant f unds could oc cur a nd go und etected. In addition, i f t he U niversity f ails t o a ddress t hese
compliance and internal control weaknesses, similar problems may occur on the University’s other
existing 278 current active NSF awards and on future NSF awards.


Recommendation No. 2

We r ecommend that N SF’s D irector of t he Division of G rants a nd A greements e nsure t hat the
University:

    1. Revises i ts pol icies and pr ocedures t o r equire t hat l abor c ost t ransfers w ithin 2 a ccounting
       periods of t heir e ffective da te ha ve a dequate explanations a nd doc umentation pr ovided t o
       justify the need for the payroll adjustments and require a secondary independent review and
       approval of the transaction. T he procedure should include the identification and review by

                                                       23
        the S PO of t imely p ayroll cos t t ransfers ex ceeding a pr e-set am ount or af fecting a
        previously-certified e ffort r eporting pe riod. T he pr ocedures s hould a lso r equire a n
        authorized individual different than the person who initiated the labor cost transfer entry to
        sign-off a s a pproving t he e ntry. F urther, i nternal c ontrols s hould be developed a nd
        implemented to ensure adherence to approved labor cost transfer policies.

    2. Revises its policies to require recertifications and actively monitor payroll correcting entries
       (PCEs) for changes occurring after the effort reporting certifications are complete, to ensure
       that such effort verification reports (EVRs) are re-certified as required by the University.

    3. Provides t raining t o a ll s taff i nvolved i n pr ocessing l abor c ost t ransfers and e ffort
       certifications a nd m onitors t o e nsure t hat t he r evised pol icies a nd pr ocedures a re
       implemented effectively.

Awardee's Comments

   1. The University agrees with this recommendation to revise policies and procedures to ensure
      adequate explanations a nd doc umentation e xists t o s upport pa yroll a djustments w ithin 2
      accounting pe riods f rom t he m onth i n w hich they were or iginally pos ted. T he U niversity
      will e valuate the f easibility of s econdary i ndependent r eviews a nd approvals of t he
      transactions a nd e nhance i nternal c ontrols t o de tect non -compliance with cost tr ansfer
      policies. T he two payroll cost transfers identified in the report occurred in 2006 a nd 2007,
      prior to the i mplementation of t he ne w L abor C ost T ransfer/Effort V erification R eporting
      review process established in September, 2008.

   2. Although t he U niversity i mplemented a pr ocedure i n S eptember 2008, t o m onitor PCEs
      made within two months from the original transaction and subsequent to certification of the
      EVR, t he U niversity agrees w ith t he r ecommendation t o s trengthen t he p olicy t o r equire a
      monitoring procedure to ensure EVRs are recertified if necessary and will modify its policy.

   3. PCE a nd E VR t raining has be en on going at t he U niversity, w ith a n i ntense f ocus on t hese
      two s ubject a reas. Internet t raining h as be en d eveloped, f aculty ha ve participated i n l ive
      training, a nd t he S PO of fice ha s w orked w ith de partmental f iscal s taff a nd pr incipal
      investigators to inform the m of t he P CE a nd E VR pr ocesses. T his t raining i s ong oing,
      expected to continue, and will be modified to include the recommendations agreed to above.


Auditors' Response

Each of the University’s comments are responsive to the finding and recommendation.
This f inding s hould n ot be c losed u ntil NSF de termines t hat t he r ecommendation ha s be en
adequately addressed and the proposed corrective actions have been satisfactorily implemented.




                                                   24
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
                                                                                           Schedule A-1

                                     University of Missouri
                       National Science Foundation Award No.
                                     Schedule of Award Costs
                       Award Period: January 1, 2004 – December 31, 2010
                        Audit Period: January 1, 2004 – December 31, 2008
                                              Interim

                                                                                          Claimed
                                  Approved         Claimed         Reclassification      Costs After
      Cost Category                Budget          Costs (A)             (B)           Reclassification
Direct Costs:
 Salaries and wages           $    1,102,044   $     1,011,203     $        (4,608)   $      1,006,595
 F ringe be nefits                   263,800           216,947                   -             216,947
 E quipment                                -             6,342              (1,244)              5,098
 Travel                              289,501           660,433            (457,455)            202,978
 Participant support               1,561,315                 -             761,217             761,217
Other direct costs:
 Materials and supplies               57,500            82,986             (30,965)             52,021
 Publication costs                    27,500            12,145                (805)             11,340
 Consultant services                 150,999            90,828             (23,938)             66,890
 S tudent Aid                              -           233,030            (223,737)              9,293
 Subcontracts                      6,624,392         3,429,239                   -           3,429,239
 O ther                                    -            23,730             (18,465)              5,265
Total Direct Costs                10,077,051         5,766,883                    -          5,766,883
Indirect Costs                       901,243             676,529                  -            676,529
Total Cost Claimed to NSF $ 10,978,294         $     6,443,412     $              -   $      6,443,412
Cost sharing                  $      674,293   $     1,028,256     $              -   $      1,028,256
(A) The total claimed costs agree with the total expenditures reported by the University of Missouri
    on the Federal Financial Reports – Federal Share of Net Disbursements as of the quarter ended
    December 31, 2008. Claimed costs reported above are taken directly from the University’s books
    of accounts.
(B) Participant s upport c osts ar e r eported by obj ect of e xpenditure i n t he C laimed C osts column.
    These costs have been reclassified to the Participant support account to facilitate comparison to
    the approved budget.




                                                    26
                                                                                              Schedule A-2


                                   University of Missouri
                     National Science Foundation Award No.
                                   Schedule of Award Costs
                     Award Period: September 1, 2004 – August 31, 2009
                     Audit Period: September 1, 2004 – December 31, 2008
                                            Interim

                                                                                          Claimed
                                 Approved           Claimed         Reclassification     Costs After
       Cost Category              Budget            Costs (A)             (B)          Reclassification
Direct Costs:
 Salaries and wages          $     397,888      $      356,473      $            -     $       356,473
 F ringe be nefits                  94,932              89,682                   -              89,682
 E quipment                              -              21,797                   -              21,797
 Travel                             75,592              93,044             (19,100)             73,944
 Participant support               176,102                   -              99,313              99,313
Other direct costs:
 Materials and supplies             139,999            148,634                (472)            148,162
 Publication costs                    4,000                802                (381)                421
 S tudent Aid                             -             76,006             (76,006)                  -
 Subcontracts                     5,275,025          5,178,599                   -           5,178,599
 O ther                             112,400             32,567              (3,354)             29,213
Total Direct Costs                6,275,938          5,997,604                    -          5,997,604
Indirect Costs                     464,811             400,044                    -            400,044
Total Cost Claimed to NSF    $ 6,740,749        $ 6,397,648         $             -    $     6,397,648

Cost sharing                 $              -   $               -   $             -    $              -
(A) The t otal c laimed c osts agr ee w ith t he t otal e xpenditures r eported b y t he U niversity of
    Missouri on t he F ederal F inancial R eports – Federal Shar e of N et D isbursements as of t he
    quarter ended December 31, 2008. C laimed costs reported above are taken directly from the
    University’s books of accounts.
(B) Participant support costs are reported by object of expenditure in the Claimed Costs column.
    These costs have been reclassified to the Participant support account to facilitate comparison
    to the approved budget.




                                                     27
                                                                                        Schedule A-3


                                  University of Missouri
                    National Science Foundation Award No.
                                  Schedule of Award Costs
                   Award Period: September 15, 2005 – August 31, 2010
                   Audit Period: September 15, 2005 – December 31, 2008
                                           Interim

                                                                                    Claimed
                                Approved        Claimed      Reclassification      Costs After
       Cost Category             Budget         Costs (A)          (B)           Reclassification
Direct Costs:
 Salaries and wages            $    740,627    $ 364,651     $             -     $       364,651
 F ringe be nefits                  318,573       83,739                   -              83,739
 E quipment                               -        2,048                   -               2,048
 Travel                             277,800       94,262                (257)             94,005
 Participant support                 63,500            -              53,935              53,935
Other direct costs:
 Materials and supplies              77,459         10,442                (53)             10,389
 Publication costs                        -          3,747                  -               3,747
 Consultant services                 85,000         55,360            (45,340)             10,020
 Computer services                        -            547                  -                 547
 S tudent Aid                             -         13,703             (5,220)              8,483
 Subcontracts                             -              -                  -                   -
 O ther                               5,382          3,222             (3,065)                157
Total Direct Costs                 1,568,341       631,721                   -           631,721
Indirect Costs                      670,779        267,573                   -           267,573
Total Cost Claimed to NSF      $ 2,239,120     $ 899,294     $               -   $       899,294
Cost sharing                   $           -   $         -   $               -   $               -
(A) The t otal c laimed c osts agr ee w ith t he t otal e xpenditures r eported b y t he U niversity of
    Missouri on t he Federal Financial Reports – Federal Shar e of N et Disbursements as of t he
    quarter ended December 31, 2008. C laimed costs reported above are taken directly from the
    University’s books of accounts.
(B) Participant support costs are reported by object of expenditure in the Claimed Costs column.
    These costs have been reclassified to the Participant support account to facilitate comparison
    to the approved budget.




                                                   28
                                                                                             Schedule A-4


                                     University of Missouri
                       National Science Foundation Award No.
                                     Schedule of Award Costs
                         Award Period: August 1, 2006 – July 31, 2010
                        Audit Period: August 1, 2006 – December 31, 2008
                                              Interim

                                                                                          Claimed
                                   Approved           Claimed                            Costs After
        Cost Category               Budget            Costs (A)       Reclassification Reclassification
  Direct Costs:
   Salaries and wages          $      218,017     $        144,936    $             -   $     144,936
   F ringe be nefits                   52,462               27,996                  -          27,996
   E quipment                           8,297                8,663                  -           8,663
   Travel                               3,750                1,457                  -           1,457
  Other direct costs:
   Materials and supplies             120,177               68,017                  -          68,017
   Publication costs                        -                  835                  -             835
   Consultant services                      -                3,885                  -           3,885
   Computer services                    1,206                  690                  -             690
   S tudent Aid                             -                4,297                  -           4,297
   O ther                              32,993                2,870                  -           2,870
  Total Direct Costs                  436,902              263,646                  -         263,646
  Indirect Costs                      206,340              124,435                  -         124,435
  Total Cost Claimed to NSF $         643,242     $        388,081    $             -   $     388,081
  Cost sharing                 $              -   $               -   $             -   $            -
(A) The total claimed costs agree with the total expenditures reported by the University of Missouri
on t he F ederal F inancial R eports – Federal Sha re of N et D isbursements as of t he quar ter e nded
December 31, 2008. C laimed costs reported above are taken directly from the University’s books of
accounts.




                                                      29
                                                                                          Schedule A-5


                                    University of Missouri
                      National Science Foundation Award No.
                                    Schedule of Award Costs
                      Award Period: January 1, 2007 – December 31, 2008
                       Audit Period: January 1, 2007 – December 31, 2010
                                             Interim


                                                                                     Claimed
                               Approved        Claimed                              Costs After
       Cost Category            Budget         Costs (A)       Reclassification   Reclassification
 Direct Costs:
  Salaries and wages          $     93,073     $    68,399     $              -   $         68,399
  F ringe be nefits                 25,350          16,029                    -             16,029
  Travel                             4,800           2,072                    -              2,072
  Participant support               13,860               -                    -                  -
 Other direct costs:
  Materials and supplies             28,000         42,878                    -            42,878
  Publication costs                   3,000            144                    -               144
  Subcontracts                    1,272,616        556,198                    -           556,198
  O ther                                  -            322                    -               322
 Total Direct Costs               1,440,699        686,042                    -           686,042
 Indirect Costs                    103,778          89,023                    -             89,023
 Total Cost Claimed to NSF $ 1,544,477         $ 775,065       $              -   $       775,065
 Cost sharing                 $           -    $           -   $              -   $                  -
(A) The total claimed costs agree with the total expenditures reported by the University of Missouri
on t he F ederal F inancial R eports – Federal Sha re of N et D isbursements as of t he quar ter e nded
December 31, 2008. Claimed costs reported above are taken directly from the University’s books of
accounts.




                                                   30
                                                                                              Schedule B



                                        Uni vers i ty of Mi ss ou ri
                    National Science Foundation Award Number
                                        Schedule of Cost Sharing
                 For the period from award inception (January 1, 2004) to December 31, 2008

                                                                            Cost
                              Cost         Cost                           Claimed
      Cost Sharing           Sharing     Sharing                            After         Unacceptable
   Item Description         Required     Claimed      Reclassification Reclassification      Costs


Award #                 $     674,293   $ 1,028,256   $             -   $   1,028,256     $              -




                                                      31
                                                                                                          Schedule C

                                 Un i vers i ty o f Mi s s ou ri
                        National Science Foundation Award Number

                    Summary Schedules of Awards Audited and Audit Results
                     Period from January 1, 2004 through December 31, 2008

Summary of Awards Audited

      Award Number                    Award Period                        Audit Period
                                 1/01/2004 – 12/31/2010              1/01/2004 – 12/31/2008
                                 9/01/2004 – 8/31/2009               9/01/2004 – 12/31/2008
                                 9/15/2005 – 8/31/2010               9/15/2005 – 12/31/2008
                                 8/01/2006 – 7/31/2010               8/01/2006 – 12/31/2008
                                 1/01/2007 – 12/31/2010              1/01/2007 – 12/31/2008


 Type of Award                                 Award Description
                 To advance the research base and leadership capacity supporting K-12
                 mathematics curriculum de sign, a nalysis, implementation and e valuation.

                 To determine the mechanisms that contribute to chromatin-based control of
                 gene expression using maize, a premier model for these studies.
                 To e valuate high school students’ mathematics learning from textbooks .
                 To learn how and where pollen and the pistil proteins interact to allow the self-
                 incompatibility system in N icotiana.
                 To study Brassica Oleracea which is emerging as a plant model.
Summary of Questioned, Unresolved, and Unsupported Costs by Award

  NSF Award           Award                                    Questioned           Unresolved         Unsupported
                                       Claimed C osts
   Number             Budget                                     Costs                Costs               Costs
                   $ 10,978,294        $  6,443,412        $                -       $        -        $           -
                      6,740,749           6,397,648                             -                 -                   -
                      2,239,120             899,294                             -                 -                   -
                        643,242             388,081                             -                 -                   -
                      1,544,477             775,065                             -                 -                   -
 T otals           $ 22,145,882        $ 14,903,500        $                -       $         -       $           -




                                                      32
                                                                                             Schedule C

Summary of Questioned Costs and Cost Share by Explanation

                                        Questioned         Internal Control        Noncompliance
                                       Cost Amount              Finding               Finding
   Total Questioned Cost                     -                   N/A                   N/A
   Total Questioned Cost Share               -                   N/A                   N/A


Summary of Noncompliance and Internal Control Findings

                                   Alternative
                                                  Noncompliance       Material,   Amount of   Amount of
                                   Procedures
            Finding                                      or          Significant, Questioned Claimed C ost
                                    Performed
                                                 Internal Control?   or Other? Cost Affected   Affected
                                   by Auditors

Subawardee Monitoring is
Inadequate and Needs to be            Yes           Yes - Both       Significant        -          $9,164,036
Strengthened
All Labor Cost Transfers Should
be Adequately Justified,
Approved and Documented and
All Effort Verification Repor ts
Should be Recertified When            Yes           Yes - Both       Significant        -          2,375,447
Related Payroll Charges are
Subsequently Adjusted




                                                  33
                                      University of Missouri
                                  Notes to the Financial Schedules
                              From January 1, 2004 to December 31, 2008

Note 1: Summary of Significant Accounting Policies

Accounting Basis

The a ccompanying f inancial s chedules h ave be en p repared i n c onformity w ith N ational S cience
Foundation ( NSF) i nstructions, w hich a re ba sed on a c omprehensive ba sis of a ccounting ot her than
generally ac cepted accounting principles. S chedules A -1 t o A -5 have been pr epared b y the
University of M issouri from t he Federal Financial R eports submitted to NSF and t he U niversity’s
accounting r ecords. T he ba sis of a ccounting ut ilized i n pr eparation of t hese r eports di ffers f rom
generally accepted accounting principles. The following information summarizes these differences:

A. Equity
   Under t he t erms of t he a ward, all funds not expended according t o t he a ward agreement and
   budget at the end of the award period are to be returned to NSF. Therefore, the awardee does not
   maintain any equity in the award and any excess cash received from NSF over final expenditures
   is due back to NSF.

B. Equipment
   Equipment i s c harged t o e xpense i n t he pe riod during which i t i s pu rchased i nstead of being
   recognized as an asset and depreciated over its useful life. As a result, the expenses reflected
   in the Schedule of Award Costs include the cost of equipment purchased during the period rather
   than a provision for depreciation.

   Except for awards with nonstandard terms and conditions, title to equipment under NSF awards
   vests in the recipient, for use in the project or program for which it was acquired, as long as it is
   needed. The recipient m ay not e ncumber the property w ithout a pproval of the f ederal awarding
   agency, but may use the equipment for its other federally sponsored activities, when it is no longer
   needed for the original project.

C. Inventory
   Minor materials and supplies are charged to expense during the period of purchase. As a result, no
   inventory is recognized for these items in the financial schedules.

D. Income Taxes
   The U niversity o f M issouri is a component uni t of t he S tate of M issouri a nd is exempt f rom
   income t axes unde r S ection 115 of t he Internal Revenue C ode. It i s also exempt f rom State o f
   Missouri income taxes.

   The de parture f rom generally a ccepted a ccounting p rinciples a llows NSF t o pr operly m onitor
   and t rack actual expenditures i ncurred b y t he a wardee. T he d eparture does not constitute a
   material weakness in internal controls.




                                                    34
                                      University of Missouri
                                  Notes to the Financial Schedules
                              From January 1, 2004 to December 31, 2008

Note 2: NSF Cost Sharing and Matching

      Below are the cost share requirements and actual cost share as of December 31, 2008:

       Award           Cost               Cost          Unsupported    Net
       Number          Share              Share            Cost       Cost
                      Required           Claimed           Share      Share     Over/(Under)
       Year 1         $      -       $   294,494        $         -   $    -     $           -
       Year 2                -           315,772                  -        -                 -
       Year 3                -            47,767                  -        -                 -
       Year 4                -           370,223                  -        -                 -
       Year 5                -                 -                  -        -                 -
        Total        $ 674,293       $ 1,028,256        $         -   $    -     $           -

  Cost share detail by year not available.

Note 3: Indirect Cost Rates

       The University’s indirect cost rate is negotiated with the Department of Health and Human
       Services. T he r ate is a f inal r ate which is a pplied to modified total direct c osts. T he
       approved indirect cost rate for fiscal years 2004 through 2006 was      , increasing to
       for fiscal years 2007 through 2009.




                                                   35
APPENDIX A – AWARDEE’S COMMENTS
            ON REPORT
37
38
39
40
APPENDIX B – STATUS OF PRIOR AUDIT FINDINGS
                                                                                             Appendix B
                                  Status of Prior Audit Findings
In a ccordance w ith G overnment A uditing S tandards, this s ection reports the s tatus o f a pplicable
findings reported in the prior A-133 Single Audit report issued for the year ended June 30, 2008 and
the desk re view of t he U niversity which w as conducted i n 2007 b y Booz A llen H amilton on behalf of
NSF. The status of those findings, which relate to matters beyond the scope of this audit, is not presented.

A-133 Audit Findings                                                                         Status

 FINANCIAL REPORTING:
 09-1. Presentation of cash equivalents - beyond the scope of this audit.                      NA

 STUDENT FINANCIAL AID:
 09-2. Late Pell Grant disbursements - beyond the scope of this audit.                         NA
 09-3. Disbursements of Student Financial Assistance - beyond the scope of
       this audit.                                                                             NA
 09-4. Return of student loan and grant funds - beyond the scope of this audit.                NA
 09-5. Reporting student status changes - beyond the scope of this audit.                      NA

 RESEARCH & DEVELOPMENT:
 09-6. Implement review procedures to identify reporting errors.                           Implemented

 GAINING EARLY AWARENESS AND READINESS FOR
 GRADUATE PROGRAMS
 09-7. Strengthen processes and controls to ensure that identified                            Partially
        unallowable expenditures to subrecipients are reimbursed to the                    Implemented
        U. S. Department of Education in a timely manner.                                  (see finding 1)
 09-8. Strengthen processes and controls to ensure compliance with
        the cash management compliance requirement.                                        Implemented
 09-10. Strengthen processes and controls surrounding the matching
        process to ensure compliance with OMB Circular A-110 and
        34 CFR Part 694.7.                                                                 Implemented

 Booz, Allen, Hamilton Desk Review Findings:

   1. General Management Structure: policies and procedures related to                        Partially
      budget/expenditure tracking are not adequately documented, and                        Implemented
      the University of MO has not adequately documented policies and                      (see finding 2.)
      procedures related to cost transfers.
   2. Accounting and Financial Systems: accounting policies and procedures                  Implemented
      lack detail and do not appear to provide employees with adequate guidance
      on how to perform accounting responsibilities such as preparing bank
      reconciliations, calculating and processing fixed asset and depreciation
      entries, and performing year end closing activities. In addition, the University
      has not documented policies, procedures, or other guidance to assist employees
      responsible for administering NSF funded awards in accounting for
      unallowable direct costs. Also, the University has not adequately documented
      standards for filing and maintenance of supporting documentation for
      accounting transactions.


                                                    42
APPENDIX C – EXIT CONFERENCE
                                                                              Appendix C
                                    Exit Conference

An exit c onference was he ld on A ugust 1 3, 2009, at t he University in C olumbia,
Missouri. Findings a nd r ecommendations a s well as ot her obs ervations contained i n t his
report were discussed with those attending. Representing the University of Missouri were:

   Name




Representing McBride, Lock & Associates were:

   Name                           Title




                                                  44
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL


            Internet
          www.oig.nsf.gov


           Email Hotline
            oig@nsf.gov


             Telephone
            703-292-7100


    Toll-Free Anonymous Hotline
           1-800-428-2189


                Fax
            703-292-9158


                 Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230




                 45
